   SPECIAL REPORTS RELATING TO THE
FEDERAL EMPLOYEES' COMPENSATION ACT
         SPECIAL BENEFIT FUND



  APRIL 30, 2003 AND SEPTEMBER 30, 2003




                                     U.S. Department of Labor
                                    Office of Inspector General
                              Report Number: 22-04-001-04-431
                                 Date Issued: October 17, 2003
[This page intentionally left blank.]
                                    Table of Contents

Acronyms                                                                        i


1.   A. Independent Auditors' Report on the Schedule of Actuarial Liability,
            Net Intra-Governmental Accounts Receivable and Benefit Expense      1

     B. Schedule of Actuarial Liability, Net Intra-Governmental Accounts
            Receivable and Benefit Expense                                      2

2.   A. Independent Accountants' Report on Applying Agreed-Upon Procedures      7

     B. Schedules
           Schedule of Actuarial Liability by Agency                            9
           Schedule of Net Intra-Governmental Accounts Receivable by Agency    11
           Schedule of Benefit Expense by Agency                               13

     C. Agreed-Upon Procedures and Results
           Summary                                                             15
           Actuarial Liability                                                 16
           Net Intra-Governmental Accounts Receivable                          21
           Benefit Expense                                                     22

3.   A. Independent Service Auditors' Report                                   27

     B. Division of Federal Employees' Compensation’s Controls
           Overview of Services Provided                                       29
           Overview of Control Environment                                     31
           Overview of Transaction Processing                                  35
           Overview of Computer Information Systems                            42
           Control Objectives and Related Controls                             45
           User Control Considerations                                         45

     C.     Information Provided by the Service Auditor
            Tests of Control Environment Elements                              46
            Test of General Computer Controls                                  46
            Sampling Methodology                                               47
            Control Objectives, Related Controls,
                and Tests of Controls                                          50
            General Computer Controls                                          51
            Transaction Processing Controls                                    63
              Acronyms

ACPS      Automated Compensation Payment System
ADP       Automatic Data Processing
BPS       Bill Payment System
BLS       Bureau of Labor Statistics
CBS       Chargeback System
CE        Claims Examiner
CFO       Chief Financial Officer
CFR       Code of Federal Regulations
CMF       Case Management File System
CNS       Corporation for National and Community Service
COLA      Cost of Living Adjustment
COP       Continuation of Pay
CPI       Consumer Price Index
CPI-U     Consumer Price Index for all Urban Consumers
CPI-Med   Consumer Price Index for Medical
DBMS      Database Management Systems
DCE       Designated Claims Examiner
DD        District Director
DFEC      Division of Federal Employees' Compensation
DHS       U.S. Department of Homeland Security
DIRM      Directorate of Information Resource Management
DITMS     Division of Information Technology Management and
          Services
DMA       District Medical Advisor
DMD       District Medical Director
DMS       Debt Management System
DO        District Office
DOJ       U.S. Department of Justice
DOL       U.S. Department of Labor
DOLAR$    Department of Labor Accounting and Related Systems
DOT       U.S. Department of Transportation
DPPS      Division of Planning, Policy and Standards
DRP       Disaster Recovery Plan
EDP       Electronic Data Processing
EOP       Executive Office of the President
EPA       Environmental Protection Agency
ESA       Employment Standards Administration
FECA      Federal Employees' Compensation Act
FECS      Federal Employees’ Compensation Systems
FEMA      Federal Emergency Management Agency
FISCAM    Federal Information System Controls Audit Manual
FMFIA     Federal Managers' Financial Integrity Act
GSA       General Services Administration




                   i
              Acronyms

HBI       Health Benefit Insurance
HHS       U.S. Department of Health and Human Services
HUD       U.S. Department of Housing and Urban Development
IBNR      Incurred But Not Reported
IPAC      Intra-Governmental Payment and Collection
IPL       Initial Program Load
IS        Information Systems
LBP       Liability to Benefits Paid (ratio)
LWEC      Loss of Wage Earning Capacity
NASA      National Aeronautics and Space Administration
NRC       Nuclear Regulatory Commission
NSF       National Science Foundation
OIG       Office of Inspector General
OLI       Optional Life Insurance
OMAP      Office of Management Administration, and Planning
OMB       Office of Management and Budget
OPM       Office of Personnel Management
OWCP      Office of Workers' Compensation Programs
RS        Rehabilitation Specialist
SAS 70    Statement on Auditing Standards, Number 70
SBA       Small Business Administration
SCE       Senior Claims Examiner
SDLC      System Development Life Cycle
SFFAS     Statement of Federal Financial Accounting Standards
SOL       Solicitor of Labor
SSA       Social Security Administration
SunGard   SunGard eSourcing, Inc.
TTD       Temporary Total Disability
U.S.C.    United States Code
USAID     U.S. Agency for International Development
USPS      United States Postal Service
VA        U.S. Department of Veterans Affairs




                   ii
[This page intentionally left blank.]
                                              8403 Colesville Road, Suite 340 Silver Spring, Maryland 20910-3367
                                                 (301) 585-7990     FAX (301) 585-7975 www.mdocpa.com




                                            SECTION 1A
                              Independent Auditors’ Report on the
                     Schedule of Actuarial Liability, Net Intra-Governmental
                           Accounts Receivable and Benefit Expenses

Victoria A. Lipnic, Assistant Secretary
Employment Standards Administration, U.S. Department of Labor,
General Accounting Office, Office of Management and Budget and Other Specified Agencies:

We have audited the accompanying Schedule of Actuarial Liability, Net Intra-Governmental
Accounts Receivable and Benefit Expense (the Schedule) of the Federal Employees' Compensation
Act Special Benefit Fund as of and for the year ended September 30, 2003. This schedule is the
responsibility of the U.S. Department of Labor's management. Our responsibility is to express an
opinion on this schedule based on our audit.

We conducted our audit in accordance with auditing standards generally accepted in the United
States of America, and the standards applicable to financial audits contained in Government Auditing
Standards, issued by the Comptroller General of the United States. Those standards require that we
plan and perform the audit to obtain reasonable assurance about whether the Schedule of Actuarial
Liability, Net Intra-Governmental Accounts Receivable and Benefit Expense is free of material
misstatement. An audit includes examining, on a test basis, evidence supporting the amounts and
disclosures in the Schedule of Actuarial Liability, Net Intra-Governmental Accounts Receivable and
Benefit Expense. An audit also includes assessing the accounting principles used and significant
estimates made by management, as well as evaluating the overall schedule presentation. We believe
that our audit provides a reasonable basis for our opinion.

In our opinion, the Schedule of Actuarial Liability, Net Intra-Governmental Accounts Receivable and
Benefit Expense referred to above presents fairly, in all material respects, the actuarial liability, net
intra-governmental accounts receivable and benefit expense of the Federal Employees' Compensation
Act Special Benefit Fund as of and for the year ended September 30, 2003, in conformity with
accounting principles generally accepted in the United States of America.

This report is intended solely for the information and use of the U.S. Department of Labor, General
Accounting Office, Office of Management and Budget and those Federal agencies listed in Section
2B of this report and is not intended to be and should not be used by anyone other than these
specified parties.




October 8, 2003


                                        Affiliated Offices Worldwide

                                                    1
                                         SECTION 1B
                          U.S. Department of Labor
           Federal Employees’ Compensation Act Special Benefit Fund
              Schedule of Actuarial Liability, Net Intra-Governmental
                     Accounts Receivable and Benefit Expense
                 As of and For the Year Ended September 30, 2003



                                                                                     (Dollars in
                                                                                      Thousands)


Actuarial Liability                                                                 $ 27,054,053


Net Intra-Governmental Accounts Receivable                                           $ 3,577,376


Benefit Expense                                                                      $ 4,583,324




                      See independent auditors' report and accompanying notes to this financial schedule.

                                                2
                                         SECTION 1C
            Notes to the Schedule of Actuarial Liability, Net Intra-Governmental
                          Accounts Receivable and Benefit Expense
                      As of and For the year ended September 30, 2003

1.   Significant Accounting Policies

     a.   Basis of Presentation

     This schedule has been prepared to report the actuarial liability, net intra-governmental
     accounts receivable and benefit expense of the Federal Employees' Compensation Act (FECA)
     Special Benefit Fund. The Special Benefit Fund was established by the Federal Employees'
     Compensation Act to provide for the financial needs resulting from compensation and medical
     benefits authorized under the Act. The U.S. Department of Labor (DOL), Employment
     Standards Administration (ESA) is charged with the responsibility of operating the Special
     Benefit Fund under the provisions of the Act. The schedule has been prepared from the
     accounting records of the Special Benefit Fund.

     The actuarial liability, net intra-governmental accounts receivable and benefit expense of the
     Special Benefit Fund have been considered specified accounts for the purpose of this special
     report and have been reported thereon. ESA is responsible for providing annual data to the
     CFO Act and other specified agencies. ESA's annual data is defined as the actuarial liability of
     the Special Benefit Fund. This annual data is necessary for the CFO Act and other specified
     agencies to support and prepare their respective financial statements.

     The actuarial liability for future workers' compensation benefits is an accrued estimate as of
     September 30, 2003. The net intra-governmental accounts receivable is the amount due from
     Federal agencies for benefit payments paid to employees of the employing agency. The net
     intra-governmental accounts receivable includes amounts which were billed to the employing
     agencies through June 30, 2003, but not paid as of September 30, 2003, including prior years,
     if applicable, plus the accrued receivable for benefit payments not yet billed for the period
     July 1, 2003 through September 30, 2003, less credits due from the public. Benefit expense
     consists of benefits paid and accrued for the period from October 1, 2002 to September 30,
     2003, plus the net change in the actuarial liability for the year.

     Benefit payments are intended to provide income and medical cost protection to covered
     Federal civilian employees injured on the job, employees who have incurred a work-related
     occupational disease and beneficiaries of employees whose death is attributable to job-related
     injury or occupational disease. The actuarial liability is computed from the benefits paid
     history. The benefits paid, inflation and interest rate assumptions, and other economic factors
     are applied to the actuarial model that calculates the liability estimate.




                                                3
                                         SECTION 1C
            Notes to the Schedule of Actuarial Liability, Net Intra-Governmental
                          Accounts Receivable and Benefit Expense
                      As of and For the year ended September 30, 2003

     b.     Basis of Accounting

     The accounting and reporting policies of the Federal Employees' Compensation Act Special
     Benefit Fund relating to the Schedule conforms to accounting principles generally accepted in
     the United States of America.

     Statement of Federal Financial Accounting Standards (SFFAS) Number 5, Section 38,
     Accounting for Liabilities of the Federal Government, requires that a contingent liability be
     recognized when three conditions are met. First, a past event or exchange transaction has
     occurred. Second, a future outflow or other sacrifice of resources is probable. Finally, the
     future outflow or sacrifice of resources is measurable.

     Claims that have been incurred but not reported (IBNR) are included in the actuarial liability.
     Therefore, the actuarial liability represents the estimated present value of future compensation
     and medical payments based upon approved claims, plus a component for incurred but not
     reported claims.

2.   Actuarial Liability (Future Workers’ Compensation Benefits)

     The Special Benefit Fund was established under the authority of the Federal Employees'
     Compensation Act to provide income and medical cost protection to covered Federal civilian
     employees injured on the job, employees who have incurred a work-related occupational
     disease and beneficiaries of employees whose death is attributable to a job-related injury or
     occupational disease. The fund is reimbursed by other Federal agencies for the FECA benefit
     payments made on behalf of their workers.

     The actuarial liability for future workers’ compensation reported on the schedule includes the
     expected liability for death, disability, medical and miscellaneous costs for approved cases.
     The liability is determined using a method that utilizes historical benefit payment patterns
     related to a specific incurred period to predict the ultimate payments related to that period.

     Consistent with past practice, these projected annual benefit payments have been discounted to
     present value using the Office of Management and Budget's (OMB) economic assumptions for
     10-year Treasury notes and bonds. The interest rate assumptions utilized for discounting was
     3.84% in year 1 and 4.35% thereafter.

     To provide more specifically for the effects of inflation on the liability for future workers'
     compensation benefits, wage inflation factors (cost of living adjustment or COLA) and
     medical inflation factors (consumer price index-medical or CPI-Med) are applied to the
     calculation of projected future benefits. These factors are also used to adjust the historical
     payments to current year constant dollars. The liability is determined assuming an annual
     payment at mid-year.


                                                4
                                          SECTION 1C
            Notes to the Schedule of Actuarial Liability, Net Intra-Governmental
                          Accounts Receivable and Benefit Expense
                       As of and For the year ended September 30, 2003

     The compensation COLA and the CPI-Med used in the model's calculation of estimates were
     as follows:
                        FY       COLA      CPI-Med
                            2004       2.30%         3.21%
                            2005       2.00%         3.54%
                            2006       1.83%         3.64%
                            2007       1.97%         3.80%
                            2008       2.17%         3.92%

     The medical inflation rates presented represent an average of published quarterly rates
     covering the benefit payment fiscal year. The compensation factors presented are the blended
     rates used by the model rather than the published June 4, 2003, FECA-COLA factor from
     which the blended rates are derived.

3.   Net Intra-Governmental Accounts Receivable

     Net intra-governmental accounts receivable is the total of the amounts billed to Federal
     agencies through June 30, 2003, but had not been paid as of September 30, 2003, including
     prior year’s amounts billed, if applicable, plus the accrued receivable for benefit payments not
     yet billed for the period July 1, 2003, through September 30, 2003, less applicable credits. The
     Special Benefit Fund also receives an appropriation for special cases where employing
     agencies and older cases are not charged for benefit payments.

     Each Federal agency is required by the Federal Employees’ Compensation Act to include in
     their annual budget estimate a request for an appropriation in the amount equal to the agency
     cost. Agencies not receiving an appropriation are required to pay agency costs from funds
     directly under their control.

     In addition, certain corporations and instrumentalities are assessed under the Federal
     Employees' Compensation Act for a fair share of the costs of administering disability claims
     filed by their employees. The fair share costs are included in the net intra-governmental
     accounts receivable.

4.   Benefit Expense

     Benefits paid and accrued consists of benefit payments for compensation for lost wages,
     schedule awards, death benefits and medical benefits paid and accrued under FECA for the
     period October 1, 2002 through September 30, 2003, plus the net change in the actuarial
     liability for the year. The amount paid and accrued for compensation for lost wages, schedule
     awards, death benefits and medical benefits totaled $2.336 billion. The net change in the
     actuarial liability for the year was an increase of $2.247 billion. Benefit expense for the fiscal
     year was $4.583 billion.

                                                 5
[This page intentionally left blank.]




             6
                                               8403 Colesville Road, Suite 340 Silver Spring, Maryland 20910-3367
                                                  (301) 585-7990     FAX (301) 585-7975 www.mdocpa.com



                                            SECTION 2A
                               Independent Accountants’ Report
                              On Applying Agreed-upon Procedures

Victoria A. Lipnic, Assistant Secretary
Employment Standards Administration, U.S. Department of Labor,
General Accounting Office, Office of Management and Budget and Other Specified Agencies:

We have performed the procedures described in Section 2C, Agreed-Upon Procedures and Results,
which were agreed to by the U.S. Department of Labor, General Accounting Office, Office of
Management and Budget, the CFO Act agencies and other specified agencies listed in the Schedules
of Actuarial Liability by Agency, Net Intra-Governmental Accounts Receivable by Agency and
Benefit Expense by Agency (Section 2B) of this special report, solely to assist you and such
agencies with respect to the accompanying Schedules of Actuarial Liability by Agency, Net Intra-
Governmental Accounts Receivable by Agency and Benefit Expense by Agency (Section 2B) of the
Federal Employees' Compensation Act Special Benefit Fund as of and for the year ended
September 30, 2003.

The Department of Labor is responsible for the Schedules (Section 2B). The Schedule of Actuarial
Liability by Agency at September 30, 2003, represents the present value of the estimated future
benefits to be paid pursuant to the Federal Employees' Compensation Act. The Schedule of Net
Intra-Governmental Accounts Receivable by Agency is the total of the amounts billed to Federal
agencies through June 30, 2003 which had not yet been paid as of September 30, 2003 plus the
accrued receivable for benefit payments not yet billed for the period July 1, 2003 through
September 30, 2003. The Schedule of Benefit Expense by Agency is the benefits paid and accrued
for the fiscal year ended September 30, 2003, plus the net change in the actuarial liability for the
year.

This agreed-upon procedures engagement was conducted in accordance with attestation standards
established by the American Institute of Certified Public Accountants and with Government
Auditing Standards, issued by the Comptroller General of the United States.

An actuary was engaged to perform certain procedures relating to the actuarial liability as described
in Section 2C.

We express no opinion on the Federal Employees' Compensation Act Special Benefit Fund's
internal controls over financial reporting or any part thereof.

The sufficiency of the procedures is solely the responsibility of the parties specified in this report.
Consequently, we make no representation regarding the sufficiency of the procedures described in
Section 2C either for the purpose for which this report has been requested or for any other purpose.
Our agreed-upon procedures and results are presented in Section 2C of this report.


                                      Affiliated Offices Worldwide


                                                  7
We were not engaged to, and did not perform an audit of the Schedules of Actuarial Liability by
Agency, Net Intra-Governmental Accounts Receivable by Agency and Benefit Expense by Agency,
the objective of which is the expression of an opinion on the Schedules or a part thereof. Accordingly,
we do not express such an opinion. Had we performed additional procedures, other matters might
have come to our attention that would have been reported to you.

This report should not be used by those who have not agreed to the procedures and taken
responsibility for the sufficiency of the procedures for their purposes. This report is intended solely
for the information and use of the U.S. Department of Labor, General Accounting Office, Office of
Management and Budget and those Federal agencies listed in Section 2B of this report and is not
intended to be and should not be used by anyone other than these specified parties.




October 8, 2003




                                                  8
                                            SECTION 2B
                                  U.S. Department of Labor
                            Employment Standards Administration
                   Federal Employees’ Compensation Act Special Benefit Fund
                               Schedule of Actuarial Liability by Agency
                                      As of September 30, 2003


                                                                                Actuarial
                                                                                Liability
AGENCY                                                                     (Dollars in thousands)

Agency for International Development                                                $      27,400
Environmental Protection Agency                                                            44,096
Federal Emergency Management Agency                                                             0
General Services Administration                                                          195,552
National Aeronautics and Space Administration                                              69,446
National Science Foundation                                                                 1,649
Nuclear Regulatory Commission                                                               9,073
Office of Personnel Management                                                             14,397
United States Postal Service                                                            8,729,029
Small Business Administration                                                              31,822
Social Security Administration                                                           305,289
Tennessee Valley Authority                                                               664,669
U. S. Department of Agriculture                                                          939,818
U. S. Department of the Air Force                                                       1,558,355
U. S. Department of the Army                                                            2,081,971
U. S. Department of Commerce                                                             200,056
U. S. Department of Defense – other                                                      955,952
U. S. Department of Education                                                              22,265
U. S. Department of Energy                                                               102,553
U. S. Department of Health and Human Services                                            296,315
U. S. Department of Homeland Security                                                   1,103,401
U. S. Department of Housing and Urban Development                                          84,240
U. S. Department of the Interior                                                         711,565




                                                   9
                                                                     SECTION 2B
                                              U.S. Department of Labor
                                        Employment Standards Administration
                               Federal Employees’ Compensation Act Special Benefit Fund
                                              Schedule of Actuarial Liability by Agency
                                                     As of September 30, 2003

                                                                                                                 Actuarial
                                                                                                                 Liability
    AGENCY                                                                                                  (Dollars in thousands)
    U. S. Department of Justice                                                                                           839,748
    U. S. Department of Labor                                                                                             280,398
    U. S. Department of the Navy                                                                                         2,999,824
    U. S. Department of State                                                                                               61,628
    U. S. Department of Transportation                                                                                   1,114,602
    U. S. Department of the Treasury                                                                                      782,903
    U. S. Department of Veterans Affairs (VA)                                                                            1,887,701
    Other agencies 1                                                                                                      938,336
    Total - all agencies (Memo Only)                                                                                 $ 27,054,053




                                                                              10
1
    Non-billable and other agencies for which ESA has not individually calculated an actuarial liability.
                                                                          SECTION 2B
                                               U.S. Department of Labor
                                         Employment Standards Administration
                                Federal Employees’ Compensation Act Special Benefit Fund
                                                     Schedule of Net Intra-Governmental
                                                       Accounts Receivable by Agency
                                                          As of September 30, 2003

                                                                                                             Amounts                       Net Intra-
                                                                                       Amounts              Expended          Credits     Governmental
                                                                                      Billed Not             Not Yet        Due from        Accounts
                                                                                     Yet Paid (1)            Billed (2)     Public (3)    Receivable (4)
                                                                                      (Dollars in           (Dollars in     (Dollars in    (Dollars in
 AGENCY                                                                               thousands)            thousands)      thousands)     thousands)

 Agency for International Development                                                      $ 5,576             $     865        $ (24)          $ 6,417

 Environmental Protection Agency                                                               7,050                1,020          (30)            8,040

 General Services Administration                                                             31,618                 4,410         (127)           35,901

 National Aeronautics and Space Administration                                               13,348                 2,030          (54)           15,324

 National Science Foundation                                                                      227                 38            (1)              264

 Nuclear Regulatory Commission                                                                 1,469                 183            (6)            1,646

 Office of Personnel Management                                                                2,197                 535            (9)            2,723

 United States Postal Service                                                                73,771            242,799          (6,823)          309,747

 Small Business Administration                                                                 5,052                 676           (20)            5,708

 Social Security Administration                                                              43,786                 6,878         (181)           50,483

 Tennessee Valley Authority                                                                  72,450                17,424         (488)           89,386

 U. S. Department of Agriculture                                                            141,798                20,073         (582)          161,289

 U. S. Department of the Air Force                                                          268,048                37,795       (1,092)          304,751

 U. S. Department of the Army                                                               323,578                47,611       (1,323)          369,866

 U. S. Department of Commerce                                                                38,757                 3,960         (127)           42,590

 U. S. Department of Defense - other                                                        161,869                22,873         (665)          184,077

 U. S. Department of Education                                                                 4,001                 402           (12)            4,391

 U. S. Department of Energy                                                                  13,718                 2,006          (55)           15,669

 U. S. Department of Health and Human Services                                               45,061                 6,468         (183)           51,346

 U. S. Department of Homeland Security                                                      158,891                28,887         (676)          187,102


                                                                                     11
1 Amounts billed through June 30, 2003 (including prior years) but not yet paid as of September 30, 2003.
2 Amounts paid and accrued but not yet billed for the period July 1, 2003 through September 30, 2003.
3 Allocation of credits due from the public through September 30, 2003.
4 Total amount due to the fund for each agency as of September 30, 2003.
                                                                          SECTION 2B
                                               U.S. Department of Labor
                                         Employment Standards Administration
                                Federal Employees’ Compensation Act Special Benefit Fund
                                                     Schedule of Net Intra-Governmental
                                                       Accounts Receivable by Agency
                                                          As of September 30, 2003

                                                                                                             Amounts                     Net Intra-
                                                                                       Amounts              Expended        Credits     Governmental
                                                                                      Billed Not             Not Yet      Due from        Accounts
                                                                                     Yet Paid (1)            Billed (2)   Public (3)    Receivable (4)
                                                                                      (Dollars in           (Dollars in   (Dollars in    (Dollars in
 AGENCY                                                                               thousands)            thousands)    thousands)     thousands)

 U. S. Department of Housing and Urban Development                                           15,264               2,178          (61)           17,381

 U. S. Department of the Interior                                                           109,239             16,197          (456)          124,980

 U. S. Department of Justice                                                                125,028             20,141          (533)          144,636

 U. S. Department of Labor                                                                   49,923               7,710         (231)           57,402

 U. S. Department of the Navy                                                               493,712             70,372        (1,978)          562,106

 U. S. Department of State                                                                   15,952               2,163          (68)           18,047

 U. S. Department of Transportation                                                         188,576             27,137          (763)          214,950

 U. S. Department of the Treasury                                                           119,803             15,711          (485)          135,029

 U. S. Department of Veterans Affairs                                                       307,962             45,223        (1,268)          351,917

 Other agencies                                                                              90,246             14,358          (396)          104,208

 Total - all agencies (Memo Only)                                                    $ 2,927,970             $ 668,123    $ (18,717)       $ 3,577,376




                                                                                     12
1 Amounts billed through June 30, 2003 (including prior years) but not yet paid as of September 30, 2003.
2 Amounts paid and accrued but not yet billed for the period July 1, 2003 through September 30, 2003.
3 Allocation of credits due from the public through September 30, 2003.
4 Total amount due to the fund for each agency as of September 30, 2003.
                                                SECTION 2B
                                    U.S. Department of Labor
                              Employment Standards Administration
                     Federal Employees’ Compensation Act Special Benefit Fund
                                    Schedule of Benefit Expense by Agency
                                    For the year ended September 30, 2003

                                                               Benefits        Change in          Total
                                                               Paid and        Actuarial         Benefit
                                                               Accrued          Liability       Expense
                                                              (Dollars in      (Dollars in     (Dollars in
AGENCY                                                        thousands)       thousands)      thousands)

Agency for International Development                             $     2,962     $     (851)      $     2,111

Environmental Protection Agency                                        3,501           4,639            8,140

Federal Emergency Management Agency                                    (645)       (28,661)           (29,306)

General Services Administration                                       15,562           4,228           19,790

National Aeronautics and Space Administration                          6,826           2,166            8,992

National Science Foundation                                             120              12               132

Nuclear Regulatory Commission                                           679              11               690

Office of Personnel Management                                         1,381           1,112            2,493

United States Postal Service                                         835,493     1,075,838         1,911,331

Small Business Administration                                          2,494            335             2,829

Social Security Administration                                        22,766          24,740           47,506

Tennessee Valley Authority                                            59,884          12,571           72,455

U. S. Department of Agriculture                                       70,560          78,198          148,758

U. S. Department of the Air Force                                    132,496          81,471          213,967

U. S. Department of the Army                                         178,960         152,889          331,849

U. S. Department of Commerce                                          14,931           9,369           24,300

U. S. Department of Defense - other                                   64,401          51,027          115,428

U. S. Department of Education                                          1,373            600             1,973

U. S. Department of Energy                                             8,844          10,111           18,955

U. S. Department of Health and Human Services                         22,134          19,616           41,750

U.S. Department of Homeland Security                                 107,700     1,103,401         1,211,101



                                                     13
                                                                            SECTION 2B
                                                U.S. Department of Labor
                                          Employment Standards Administration
                                 Federal Employees’ Compensation Act Special Benefit Fund
                                                    Schedule of Benefit Expense by Agency
                                                    For the year ended September 30, 2003

                                                                                                                       Change in         Total
                                                                                                           Benefit     Actuarial        Benefit
                                                                                                         Payments       Liability      Expense
                                                                                                         (Dollars in   (Dollars in    (Dollars in
 AGENCY                                                                                                  thousands)    thousands)     thousands)
 U. S. Department of Housing and Urban Development                                                             7,352         3,246           10,598

 U. S. Department of the Interior                                                                             55,398        53,064         108,462

 U. S. Department of Justice                                                                                  57,443     (364,536)        (307,093)

 U. S. Department of Labor                                                                                    21,465         7,421           28,886

 U. S. Department of the Navy                                                                                242,003       127,523         369,526

 U. S. Department of State                                                                                     6,685         5,369           12,054

 U. S. Department of Transportation                                                                           91,597       (37,252)          54,345

 U. S. Department of the Treasury                                                                             49,836     (294,051)        (244,215)

 U. S. Department of Veterans Affairs                                                                        154,801       125,124         279,925

 Other agencies (1)                                                                                           97,636        17,956         115,592

 Total - all agencies (Memo Only)                                                                        $ 2,336,638   $ 2,246,686      $ 4,583,324




                                                                                       14
1 Non-billable and other agencies for which ESA did not individually calculate an actuarial liability.
                                           SECTION 2C
                                Agreed-upon Procedures & Results

Summary

Our objective was to perform specified agreed-upon procedures on the Schedules of Actuarial
Liability by Agency, Net Intra-Governmental Accounts Receivable by Agency, and Benefit Expense
by Agency as of and for the year ended September 30, 2003. These procedures were performed in
accordance with attestation standards established by the American Institute of Certified Public
Accountants and Government Auditing Standards, issued by the Comptroller General of the United
States.

We applied the following agreed-upon procedures as summarized below:

Actuarial Liability - Consistent with prior years, the actuarial liability was evaluated by an
independent actuary. Agreed-upon procedures were performed on the methodology, assumptions and
information used in the model. The 2003 benefit payments predicted by the model for 2002 were
compared to actual payments made in 2003, and analytical procedures were performed relating the
change in the liability amount by agency to the change in the aggregate liability.

Net Intra-Governmental Accounts Receivable - Confirmation letters regarding the accounts receivable
due as of September 30, 2003, were mailed and confirmed with the CFO Act and other selected
Federal agencies. Agreed-upon procedures were performed on FY 2003 accounts receivable and
compared with FY 2002 accounts receivable regarding new receivables; collections, write-offs, and
chargebacks, and explanations were requested for changes over 5 percent, if any.

Benefit Expense - Agreed-upon procedures were applied to the benefit payments made during the
current fiscal year by District office, by strata, and by agency as compared to benefit payments of the
prior fiscal year and to DOL’s year-end cut-off process. We calculated the change in the actuarial
liability from the prior year to the current year.




                                                  15
                                                      SECTION 2C
                                      Agreed-upon Procedures & Results

ACTUARIAL LIABILITY

Overview

An independent actuary evaluated the actuarial model and the resulting actuarial liability. The
independent actuary issued a report stating the aggregate actuarial liability was reasonably stated in
accordance with Actuarial Standards. We performed agreed-upon procedures on the calculation of the
actuarial liability by employing agency. Our procedures included considerations of how the change in
each agency's liability relate to the change in the total estimate, its own history, its group, and to the
benefit payments made during the current year.

Procedures and Results

 Agreed-Upon Procedures Performed                      Results of Procedures

 Engaged a certified actuary to review the
 calculations of the actuarial liability as to:
 • Whether or not the assumptions used by the The actuary's review of the model indicated that the assumptions
     model were appropriate for the purpose and were appropriate for the purpose and method applied. The
     method to which they were applied.         actuary tested the calculations included in the model and reported
                                                that they were performed consistent with the model's stated
                                                assumptions.

 •   Whether or not such assumptions were applied      The actuary's review of the model indicated that the assumptions
     correctly and if other calculations within the    were applied correctly and that calculations were performed in
     model were performed in a manner as to            such a way as to generate results which are appropriate overall.
     generate appropriate results.                     Additional detailed checks of calculations and data flow revealed
                                                       no error in methodology had been used.

 •   Whether or not tests of calculations provided a The methodology and assumptions applied to the calculations
     reasonable basis regarding the integrity of the tested provides a reasonable basis in regard to the integrity of the
     model as a whole.                               model as a whole.

 •   Whether or not the overall results were           The actuary indicated that the model calculation of the liability
     reasonable.                                       and the overall results were reasonable under the method and
                                                       assumptions used.

 Confirmed with the American Academy of                The actuarial specialist was accredited and in good standing with
 Actuaries and the Casualty Actuarial Society as to    the American Academy of Actuaries and the Casualty Actuarial
 whether the actuary was accredited and in good        Society. The actuarial consulting firm certified that they were
 standing with the associations.       Obtained a      independent from DOL and the FECA Special Benefit Fund. The
 statement of independence from the actuarial firm     actuarial consulting firm provided references stating experience
 and two references from clients of the actuarial      in the type of work required for this engagement. The references
 firm as to the actuary's work.                        were contacted, and they confirmed the actuary possessed the
                                                       expertise and experience required for this engagement.




                                                            16
                                                     SECTION 2C
                                    Agreed-upon Procedures & Results

Agreed-Upon Procedures Performed                      Results of Procedures

Compared     and    evaluated     the     economic    The model utilizes estimates of prospective inflation and interest
assumptions used by the model for 2002 to the         rates to project and then discount future benefit payments. As
assumptions used during the current year.             published by OMB, prospective interest rates of 10-year Treasury
                                                      bills decreased from 5.2% for the prior year to an average of
                                                      4.29% for the current year. The Bureau of Labor Statistics (BLS)
                                                      estimates of COLA decreased from a 10-year average of 2.37%
                                                      for the prior year to a 10-year average of 2.11% for the current
                                                      year, and CPI-Med factors decreased from a 10-year average of
                                                      4.04% for the prior year to a 10-year average of 3.75% for the
                                                      current year. In combination, these rate changes resulted in a
                                                      decrease in the net effective rate (interest rate less inflation rate)
                                                      of approximately 27% (from 2.50% to 1.83%). The result of the
                                                      changes in estimated prospective rates was to increase the
                                                      estimated actuarial liability by approximately 7% from what the
                                                      liability would have been had 2002 rates been used for the year
                                                      2003 calculation.


Compared the interest rate (used for discounting      The interest rates used in the model were the same interest rates
the future liability to the present value) and        stated in OMB's publication. The inflation rates used in the
inflation rates used by the model to the source       model were derived from the BLS indices cited. No exceptions
documents from which they were derived.               were noted.


Compared the actuarial liability by agency of the     The liability reported in the Memorandum issued to the CFOs of
unaudited estimated actuarial liability for future    Executive Departments of the unaudited estimated actuarial
workers’ compensation benefits, as reported in a      liability for future workers' compensation benefits agreed with the
Memorandum to the CFOs of Executive                   liability calculated by the model and reported on the Projected
Departments issued by DOL’s Chief Financial           Liability Reports.
Officer, to the liability calculated by the model
and reported on the Projected Liability Reports.

Compared by agency and in aggregate, the 1998-        The amounts by agency and in the aggregate agreed without
2003 benefit payments used by the model with the      exception. The benefit payment data used by the model were the
amount of benefit payments reflected in the           same data used to perform agreed-upon procedures for benefit
Summary Chargeback Billing Report. Determined         payments.
whether the benefit payment data used by the
model are the same data on which agreed-upon
procedures for benefit payments were performed.




                                                           17
                                                       SECTION 2C
                                      Agreed-upon Procedures & Results

Agreed-Upon Procedures Performed                        Results of Procedures

Determined the basis of the agency groupings and        The agency groupings were consistent with the prior year. The
performed tests to compare the consistency of the       grouping was determined premised on a claim duration
grouping with the prior year. Determined the            probability study performed by a DOL economist. Both the
impact of such inclusion in a grouping.                 designers of the model and the independent actuary agreed that
                                                        the study provided a basis for such groupings. The groupings
                                                        were traced to the study. The study included data through 1991,
                                                        and therefore, agencies without claims under FECA prior to 1991
                                                        had not been studied. These agencies were placed in Group III,
                                                        whose average probability approximated the average of the
                                                        aggregate population. These agencies are USAID, NSF, NRC,
                                                        OPM, SBA and SSA. In 2003 Homeland Security was added to
                                                        Group II premised on the understanding that more than half the
                                                        total chargeback was transferred from Group II agencies (DOT
                                                        and Treasury).

                                                        Agency groupings are used to group agencies with similar
                                                        historical benefit payment patterns. The liability estimate is
                                                        calculated by grouping to minimize potential distortion in the
                                                        calculation due to variable historical payment patterns among the
                                                        agencies.

Calculated the change in the actuarial liability by     The aggregate liability increased approximately 9.2%.           The
agency and in the aggregate. Determined, based on       following agencies' liabilities changed by more than 10%.
a predictive test, if variances were consistent with
the Liability to Benefits Paid (LBP) ratio applied      •   EPA                     +11.76%
to each agency’s prior year liability adjusted for      •   Treasury                -27.30%
their change in benefit payments and economic           •   Homeland Security      +100.00%
assumptions. Identified the reason for or requested     •   Smithsonian             +12.67%
explanations for agencies whose change in liability     •   DOJ                     -30.27%
was not consistent with predictive test results.        •   Energy                  +10.94%
                                                        •   Postal Service          +14.06%
                                                        •   FEMA                   -100.00%

                                                        DOJ and Treasury both transferred substantial subagencies to
                                                        Homeland Security. FEMA was transferred entirely to Homeland
                                                        Security. For EPA, Smithsonian, Energy, and Postal Service, the
                                                        model calculation was consistently within 10% of the predictive
                                                        test results indicating changes in these liabilities are reasonable.
                                                        No further explanations deemed necessary.


Reviewed the Department of Homeland Security            There were four agencies with prior activity whose related
(DHS) liability estimate and performed tests to         historical benefit payments were imputed to Homeland Security
determine its reasonableness. Determined the            as the basis on which the new liability was calculated. DOT
impact of the liability transfer on contributing        transferred Coast Guard, Coast Guard Auxiliary, and the
agencies.                                               Transportation Security Administration. DOJ transferred the
                                                        Immigration and Naturalization Service. Treasury transferred
                                                        Secret Service, Customs, and Federal Law Enforcement Training
                                                        Center (FLETC). FEMA was transferred in its entirety.




                                                             18
                                                      SECTION 2C
                                     Agreed-upon Procedures & Results

Agreed-Upon Procedures Performed                       Results of Procedures

                                                       For the purpose of calculating the new DHS liability, and under
                                                       the supervision of an actuary, DOL added the historical benefit
                                                       payments of the subagencies identified to DHS and calculated a
                                                       new liability. Conversely, the historical benefit payments
                                                       included now under DHS were excluded from the calculation of
                                                       the legacy agencies.

                                                       We calculated the percentage of the transferred subagency
                                                       payments for 1998-2002 to overall agency benefit payments for
                                                       those years and compared it to the constant dollar change in the
                                                       calculation of the legacy estimated liability as follows:
                                                       • DOT (Payments: 7.4%, Decline: 5.0%)
                                                       • DOJ (Payments: 35.3%, Decline 31.8%)
                                                       • Treasury (Payments: 31.0%, Decline 28.8%)

                                                       For DOJ, DOT, Treasury and DHS, the actual chargeback
                                                       transferred per the model was traced to the Summary Chargeback
                                                       Billing Report for 1998-2003 without exception.

                                                       The actuary's review of the model indicated that the liability
                                                       estimate related to DHS was reasonable.

Calculated the ratio of the agency liability to the    The Liabilities to Benefits Paid ratio (LBP) was 11.5. By group,
benefit payments (LBP) by agency and compared          the range of the ratio was from 10.3 (Group V-Postal Service) to
this to the agency group ratio. Identified and         13.1 (Group III).
requested explanations for those agencies for
which the ratio varied by more than 10 percent         The following agencies varied by more than 10% from their
from their group ratio and lay outside the range of    group's ratio and fell outside the range of group ratios: Education
group averages based on predictive test results.       (15.3 - Group II), USAID (9.2 - Group III), All Other Defense
                                                       (14.6 - Group III), State (8.7 - Group IV).

                                                       For these four agencies the model calculated within 10% of a
                                                       predictive test based upon each agency's prior year liability
                                                       adjusted for their change in benefit payments and economic
                                                       assumptions for all but USAID. The model calculation for
                                                       USAID was lower than the prediction by approximately 21.8%.

                                                       We noted that USAID's medical payments increased by 67% in
                                                       actual dollars during 2003. The model is designed to gradually
                                                       reflect such fluctuations as part of an overall history of benefit
                                                       payments. The LBP ratio as calculated does not consider the
                                                       overall history.

Compared the benefit payments predicted by the         Payments increased in constant dollars approximately 2.14%
model for year 2003 to the actual benefit              during the current fiscal year, which was comprised of a 2.15%
payments. Identified the agencies where the            increase in compensation and 2.13% increase in medical benefit
model computed benefit payments that varied by         payments.
more than 20 percent and $2 million from actual
benefit payments made during 2003.                     Actual payments were approximately 11.3% lower than
                                                       predicted. The following agencies' actual payments varied from
                                                       the prediction by more than 20% and $2 million: DOJ
                                                       (-52.22%), State (+47.2%), Treasury (-40.9%).


                                                            19
                                                       SECTION 2C
                                      Agreed-upon Procedures & Results

Agreed-Upon Procedures Performed                        Results of Procedures

                                                        In constant dollars, State’s benefit payments increased over the
                                                        prior year by 13.4%. Treasury and DOJ are legacy agencies for
                                                        Homeland Security who transferred subagencies whose histories
                                                        are expected to reflect higher physical risk than the balance of the
                                                        subagencies in Treasury and DOJ. Such history would have
                                                        skewed the projection upward for each agency.


Compared an estimate of the liability by agency         The calculated amounts were within 10% of amounts derived by
calculated from the agency’s prior year balance,        DOL's model for all agencies except USAID (-21.8%), SBA
the change in their benefit payments, and the           (-11.5%), and Homeland Security (+13.6%).
overall effect of change in economic factors to the
liability computed by the actuarial model.              We noted that the increase in benefit payments for the
                                                        components of Homeland Security was chiefly comprised of new
                                                        claims by subagency, Transportation Security Administration.
                                                        New claims are heavily weighted in the model. As previously
                                                        cited, Treasury, as a legacy agency for Homeland Security
                                                        transferred subagencies (Secret Service, Customs, and FLETC)
                                                        whose history is expected to reflect higher physical risk than the
                                                        balance of the subagencies in Treasury. Transferring out this
                                                        history of benefit payments may have resulted in a lower than
                                                        predicted calculation for the legacy agencies.

                                                        SBA's LBP is 12.8% higher than the average (11.5%). This
                                                        would counter the indication that their liability may be
                                                        understated.

                                                        DOL's actuary reviewed the USAID calculation and indicated the
                                                        model liability calculation was appropriate.


Performed a limited survey of interest and inflation    Surveyed rates from non-FECA sources for compensation ranged
rates utilized by the Postal Service, OPM, and two      from 2.38% to 3.00% and for medical ranged from -3.57% to
other sources with governmental actuarial               1.40%. The rates used by the FECA model compute to net
liabilities experience.      Determined how the         effective rates of approximately 2.19% for compensation and
surveyed, net effective rates compared to the           .55% for medical. The use of lower rates by FECA results in the
interest rates used in the model and explained the      calculation of a higher liability which is more conservative.
effect of rate difference.

Compared the actuarial liability for the Postal         The actuarial liability calculated by DOL for the Postal Service
Service calculated by the model to the actuarial        was 19.5% higher than the calculation prepared by the Postal
liability calculated by the Postal Service’s            Service. The net effective discount rates used by the Postal
independent model.                                      Service were different than those used by DOL.




                                                             20
                                                      SECTION 2C
                                        Agreed-upon Procedures & Results

NET INTRA-GOVERNMENTAL ACCOUNTS RECEIVABLE

Overview

Agreed-upon procedures were applied to the net intra-governmental accounts receivable as of
September 30, 2003, as compared with net intra-governmental accounts receivable as of
September 30, 2002, with regards to new receivables, collections, write-offs, and chargebacks.

We compared the fiscal year 2003 net intra-governmental accounts receivable to the fiscal year 2002
net intra-governmental accounts receivable and investigated changes of over 5 percent. We compared
new receivables, collections and write-offs for fiscal year 2003 to fiscal year 2002; calculated the
accounts receivable outstanding for each fiscal year; calculated the chargeback and fair share total for
2003; and confirmed the chargeback amounts billed for claimants' payments directly with the Federal
agencies charged.

Procedures and Results

Agreed-Upon Procedures Performed                                      Results of Procedures
Compared prior year ending net intra-governmental                     The change in the net intra-governmental accounts
accounts receivable balances to the current year net intra-           receivable balances was in proportion to the increases in
governmental accounts receivable balance by Federal                   benefit payments billed to and paid by each Federal agency.
agency. Determined whether the increase or decrease was
in proportion to the change in amounts billed and paid.

Confirmed accounts receivable balances due as of                      Confirmations were reviewed for agreement to amounts
September 30, 2003, for all CFO Act agencies (except                  recorded.    Explanations for the differences on the
DOL) and other selected Federal agencies.                             confirmations received were obtained from the agencies
                                                                      and/or DOL. A confirmation was not received from
                                                                      Howard University Hospital. DOL’s CFO office has an
                                                                      interagency workgroup which works to resolve any
                                                                      differences with the agencies.

Compared the chargeback billing report, for the period                The amounts billed to the Federal agencies for the period
July 1, 2002 through June 30, 2003, to the amounts billed to          July 1, 2002 through June 30, 2003, agreed to the
the Federal agencies.                                                 chargeback billing report.

Recalculated the allocation of credits due from the public.           No exceptions were noted.

Determined, for a non-statistical sample of at least 25 items,        No exceptions were noted.
whether claimant accounts receivable overpayments were
properly established and classified.




                                                                 21
                                                   SECTION 2C
                                   Agreed-upon Procedures & Results

BENEFIT EXPENSE

Overview
Agreed-upon procedures were applied to compensation and medical benefit payments in total, by
strata, by average payment and by agency for the fiscal year ended September 30, 2003, to the fiscal
year ended September 30, 2002, and for the sampling period of October 1, 2002 to April 30, 2003, to
the sampling period of October 1, 2001 to April 30, 2002. Changes in the actuarial liability from the
prior year to the current year were calculated. Agreed-upon procedures were applied to DOL's year-
end cut-off process.
Procedures and Results

 Agreed-Upon Procedures Performed                    Results of Procedures

 Compared the benefit payments recorded in the       The benefit payments recorded in the Automated
 Automated Compensation Payment System (ACPS)        Compensation Payment System (ACPS) and the Bill Payment
 and Bill Payment System (BPS) databases to the      System (BPS) databases varied from the SF-224s by 0.26%
 Department of Labor's general ledger and the        and varied from the general ledger by 0.27% as of April 30,
 Department of Treasury’s SF-224s as of April 30,    2003.
 2003, and September 30, 2003.
                                                     As of September 30, 2003, the ACPS and BPS databases
                                                     varied from the SF-224s by 1.76% ($41.05 million) and varied
                                                     from the general ledger by 1.59% ($36.80 million).

 Agreed-upon procedures were applied to DOL cut-     The year-end adjustment made to the general ledger to prorate
 off procedures.                                     the expenditures which overlapped fiscal years agreed to the
                                                     supporting documentation. The adjustments were recorded in
                                                     the correct period.

 Compared the average ACPS and BPS payments by       The average ACPS benefit payments by strata varied from
 strata for the April 30, 2003, and September 30,    -9.51% to 0.98% with an average increase of 2.33% from
 2003, databases to the average ACPS and BPS         April 30, 2003 to April 30, 2002. The strata that had a variance
 payments by strata for the April 30, 2002 and       greater than 7% was the strata of payments greater than
 September 30, 2002 databases. Determined if there   $150,000, which decreased by 9.51%.
 were any variances over 7 percent.
                                                     DOL stated that average ACPS benefit payments per case in
                                                     the stratum over $150,000 are attributable to a small number of
                                                     cases, less than 50. The decrease from 2002 to 2003 in the
                                                     average payments per case in this stratum is largely attributable
                                                     to the specific circumstances of each case rather than trends.

                                                     The average ACPS benefit payments by strata varied from
                                                     -6.26% to 2.40% with an average increase of 6.16% from
                                                     September 30, 2003 to September 30, 2002. No strata had
                                                     variances greater than 7%.

                                                     The average BPS benefit payments by strata varied from
                                                     -17.33% to 14.02% with an average decrease of 0.81% from
                                                     April 30, 2003 to April 30, 2002. The strata that had a variance
                                                     greater than 7% included strata $750 to $1,250 which increased
                                                     8.74% and strata for payments greater than $75,000 which
                                                     decreased 17.33%.


                                                        22
                                   SECTION 2C
                         Agreed-upon Procedures & Results

Agreed-Upon Procedures Performed      Results of Procedures

                                      DOL stated that average BPS benefit payments in the stratum
                                      $750 to $1,250 are subject to medical cost inflation. OWCP
                                      compares FECA medical average costs to nationwide health
                                      care cost trends as measured by the Milliman Health Cost
                                      Index. This index measures the change in non-Medicare health
                                      case costs per capita for the overall national population. The
                                      annual trend of this index for the audit period exceeded 9%.

                                      DOL stated that average BPS benefit payments in the stratum
                                      of payments greater than $75,000 are attributable to a small
                                      number of payments primarily for hospital stays and long-term
                                      care or other accommodations for disabilities. The decrease
                                      from 2002 to 2003 in the average payments in this stratum is
                                      largely attributable to the reductions in such care provided in
                                      2002 arising from the September 11, 2001 terrorist attacks.
                                      Because of the small number of bills in this stratum, only a few
                                      could cause a significant fluctuation.

                                      The average BPS benefit payments by strata varied from
                                      -14.5% to 19.1% with an average increase of 2.58% from
                                      September 30, 2003 to September 30, 2002. The strata that had
                                      a variance greater than 7% was the strata of payments greater
                                      than $75,000, which decreased by 14.5%.

                                      DOL stated that average BPS benefit payments in the stratum
                                      of payments greater than $75,000 are attributable to a small
                                      number of payments primarily for hospital stays and long-term
                                      care or other accommodations for disabilities. The decrease
                                      from 2002 to 2003 in the average payments in this stratum is
                                      largely attributable to the reductions in such care provided in
                                      2002 arising from the September 11, 2001 terrorist attacks.
                                      Because of the small number of bills in this stratum, only a few
                                      could cause a significant fluctuation.




                                         23
                                                  SECTION 2C
                                     Agreed-upon Procedures & Results

Agreed-Upon Procedures Performed                        Results of Procedures

Performed a trend analysis on the total benefit         The 2003 benefits increased by 5.7% over 2002.
payments for the last 5 fiscal years. We requested
explanations from DOL for variances over 5 percent,     DOL stated that the 2003 total benefit increase over 2002 is
if any.                                                 attributable to the base pay raise excluding locality pay of
                                                        3.1%, the 2.4%COLA increase, and medical inflation.

                                                        In addition, the 2001 benefits increased by 5.92% over 2000.
                                                        DOL stated that medical benefits increased substantially in
                                                        2001 over prior years resulting in higher overall benefit
                                                        payments. No other variances over 5% were noted for any of
                                                        the other 5 years.

Compared the summary chargeback-billing list to the     The agency chargeback billing list varied from the benefit
total benefit payments as of September 30, 2003.        payment    databases    for  the    fiscal   year  ending
                                                        September 30, 2003 by 1.02%.

Compared by agency, and in total, benefit payments      Benefit payments for the fiscal year ending September 30,
for the fiscal year ending September 30, 2003, with     2003 increased 1.5% overall from September 30, 2002.
total benefit payments made for the fiscal year         Benefit payments increased or decreased by more than 7% for
ending September 30, 2002.           We requested       the following agencies:
explanations from DOL for any variances over 7
percent.                                                EOP                   9.98%       USAID       13.57%
                                                        Smithsonian         15.63%        DOJ         -41.95%
                                                        NRC                  -7.65%       Treasury   -44.06%
                                                        CNS                 -21.16%       DOT         -10.85%
                                                        SBA                  11.52%       Education  -12.65%
                                                        OPM                  33.59%       FEMA      -123.01%

                                                        DOL stated that the reductions in benefits for the Department
                                                        of Treasury, DOJ, DOT and FEMA are largely due to the
                                                        transfer of components to the DHS.

                                                        DOL also stated that the EOP, Smithsonian, CNS, SBA, OPM,
                                                        NRC, USAID, and Education are very small agencies.
                                                        Resolution of a small number of cases or very small changes in
                                                        injury rates or payments for catastrophic injuries can cause
                                                        significant fluctuations in payments.       Increases in the
                                                        remaining agencies are primarily due to inflation.        The
                                                        annualized trend for medical cost increases for the period
                                                        exceeded 9%, the base pay raise excluding locality pay was
                                                        3.1%, and the COLA was 2.4%.


Compared the benefit payments made by each              As of April 30, 2003, benefit payments increased or decreased
District office as of April 30, 2003, and September     from April 30, 2002, by more than 5% for the following
30, 2003, to the prior year data. Determined if there   districts:
were any variances larger than 5 percent. We
requested explanations from DOL for any variances       New York            9.04%         Dallas          6.99%
over 5 percent.                                         Cleveland           6.08%         Washington      7.43%
                                                        Kansas City         8.90%         National Office -6.65%
                                                        Denver              5.19%




                                                          24
                                                SECTION 2C
                                   Agreed-upon Procedures & Results

Agreed-Upon Procedures Performed                     Results of Procedures

                                                     As of September 30, 2003, benefit payments increased or
                                                     decreased from September 30, 2002, by more than 5% for the
                                                     following districts:

                                                     New York           11.63%         Denver         5.55%
                                                     Philadelphia        5.06%         Seattle         5.93%
                                                     Jacksonville        5.32%         Dallas          7.57%
                                                     Cleveland           7.55%         Washington     10.12%
                                                     Kansas City         8.17%

                                                     DOL stated that the primary reason for increases in benefit
                                                     payments by District offices is inflation. The annualized trend
                                                     for medical cost increases for the period exceeded 9%, the base
                                                     pay raise excluding locality pay was 3.1% and COLA was
                                                     2.4%. New York and Washington benefit payments were also
                                                     increased by anthrax claims. In addition, fluctuations are
                                                     caused by the transfer of cases between District offices.

Calculated a 12-month projected benefit payment      The actual 12-month total benefit payments varied from the
based on the April 30, 2003 database (7 months).     projected 12-month total benefit payments for the fiscal year
Compared the projected 12-month total benefit        ending September 30, 2003, by -2.05%.
payments to the actual 12-month total benefit
payments as of September 30, 2003.

Inquired of DOL of any comparisons prepared          DOL prepared a study of the amounts paid for 12 different
between the fee schedule used to pay medical         common procedure codes by 19 state agencies for calendar
providers with the fee schedule used by other        year 2002. The amounts which would be paid under DOL's fee
agencies.                                            schedule were in between the minimum and maximum of the
                                                     19 state agencies. DOL did not prepare a new study in 2003.

Calculated the change in the actuarial liability The change in the actuarial liability was calculated correctly by
reported on the current year and prior year’s DOL.
compilation report prepared by DOL.




                                                        25
[This page intentionally left blank.]




                 26
                                         SECTION 3A

                    INDEPENDENT SERVICE   AUDITORS'
                                    8403 Colesville           REPORT
                                                    Road, Suite
                                       (301) 585-7990
                                                                340 Silver Spring, Maryland 20910-3367
                                                          FAX (301) 585-7975 www.mdocpa.com

                                           SECTION 3A
                             Independent Service Auditors’ Report

Victoria A. Lipnic, Assistant Secretary
Employment Standards Administration, U.S. Department of Labor:

We have examined the accompanying description of the controls of the Division of Federal
Employees' Compensation (DFEC) applicable to general computer controls and the processing of
transactions for users of the Federal Employees' Compensation Act Special Benefit Fund. Our
examination included procedures to obtain reasonable assurance about whether (1) the
accompanying description presents fairly, in all material respects, the aspects of DFEC controls
that may be relevant to a user organization’s internal control as it relates to an audit of financial
statements; (2) the controls included in the description were suitably designed to achieve the
control objectives specified in the description, if those controls were complied with satisfactorily
and users of the FECA Special Benefit Fund applied the controls contemplated in the design of
DFEC's controls, as described in Section 3B; and (3) such controls had been placed in operation as
of April 30, 2003.

DFEC uses SunGard eSourcing, Inc. (SunGard), to process information and to perform various
functions related to the data processing services of the FECA Special Benefit Fund. The
accompanying description includes only those controls and related control objectives at DFEC, and
does not include controls and related control objectives at SunGard, a subservicer. Our
examination did not extend to the controls of SunGard, the subservicer. The control objectives
(Section 3C) were specified by the management of DFEC. Our examination was performed in
accordance with standards established by the American Institute of Certified Public Accountants,
Government Auditing Standards, issued by the Comptroller General of the United States, and
included those procedures we considered necessary in the circumstances to obtain a reasonable
basis for rendering our opinion.

In our opinion, the accompanying description of the aforementioned controls presents fairly, in all
material respects, the relevant aspects of DFEC's controls that had been placed in operation as of
April 30, 2003. Also, in our opinion, the controls, as described, are suitably designed to provide
reasonable assurance that the specified control objectives would be achieved if the described
controls were complied with satisfactorily and users of the FECA Special Benefit Fund applied the
internal controls contemplated in the design of the DFEC's controls.

In addition to the procedures we considered necessary to render our opinion as expressed in the
previous paragraph, we applied tests to specified controls to obtain evidence about their
effectiveness in meeting the related control objectives during the period from October 1, 2002
through April 30, 2003. The specific controls and the nature, timing, extent, and results of the tests
are summarized in Section 3C. This information has been provided to the users of the FECA
Special Benefit Fund and to their auditors to be taken in consideration, along with information
about the internal control at user organizations, when making assessments of control risk for user
organizations.


                                     Affiliated Office Worldwide
                                                  27
DFEC states in its description of controls that it has controls in place that require the review of
medical evidence annually or every two or three years depending on the type of compensation paid.
Our tests of operating effectiveness noted that a significant number of case files contained no current
medical evidence as required by DFEC’s policy (Page 66). This resulted in the nonachievement of
the control objective “Controls provide reasonable assurance that claimants submitted medical
evidence to support continuing eligibility for compensation and medical benefits.”

In our opinion, except for the matter described in the preceding paragraph, the controls that were
tested, as described in Section 3C, were operating with sufficient effectiveness to provide
reasonable, but not absolute, assurance that the specified control objectives were achieved during the
period from October 1, 2002 through April 30, 2003. However, the scope of our engagement did not
include tests to determine whether control objectives not listed in Section 3C were achieved;
accordingly, we express no opinion on the achievement of control objectives not included in Section
3C.

The relative effectiveness and significance of specific controls at DFEC and their effect on
assessments of control risk at user organizations are dependent on their interaction with the controls
and other factors present at individual user organizations. We have performed no procedures to
evaluate the effectiveness of controls at individual user organizations.

The description of controls at DFEC is as of April 30, 2003, and information about tests of operating
effectiveness of specified controls covers the period October 1, 2002 through April 30, 2003. Any
projection of such information to the future is subject to the risk that, because of change, the
description may no longer portray the controls in existence. The potential effectiveness of specified
controls at DFEC is subject to inherent limitations and, accordingly, errors or fraud may occur and
not be detected. Furthermore, the projection of any conclusions, based on our findings, to future
periods is subject to the risk that (1) changes made to the system or controls, (2) changes in
processing requirements, or (3) changes required because of the passage of time may alter the
validity of such conclusions.

This report is intended solely for the information and use of the U.S. Department of Labor, users of
the FECA Special Benefit Fund (Federal agencies listed in Section 2B of this report), and the
independent auditors of its users.




October 8, 2003




                                                 28
                                           SECTION 3B
                         Division of Federal Employees’ Compensation’s
                                      Description of Controls

OVERVIEW OF SERVICES PROVIDED
Overview
The Federal Employees' Compensation Act Special Benefit Fund was established by FECA to provide
income and medical cost protection worldwide for job-related injuries, diseases, or deaths of civilian
employees of the Federal Government and certain other designated groups. The DOL-ESA is charged
with the responsibility of operation and accounting control of the Special Benefit Fund under the
provisions of FECA. Within ESA, the Office of Workers' Compensation Programs, Division of
Federal Employees’ Compensation (DFEC), administers the FECA program.

In 1908, Congress passed legislation providing workers' compensation to Federal workers whose jobs
were considered hazardous. Due to the limited scope of this legislation, FECA was passed in 1916,
extending workers' compensation benefits to most civilian Federal workers. FECA provided benefits
for personal injuries or death occurring in the performance of duty.

FECA provides wage replacement (compensation) benefits and payment for medical services to
covered Federal civilian employees injured on the job, employees who have incurred a work-related
occupational disease, and the beneficiaries of employees whose death is attributable to a job-related
injury or occupational disease. Not all benefits are paid by the program since the first 45 days from
the date of the injury are usually covered by the injured workers being paid by their respective
agencies in a continuation of pay (COP) status. FECA also provides rehabilitation for injured
employees to facilitate their return to work.
Operational Offices
DFEC administers FECA through 12 District offices and a National headquarters located in
Washington, D.C. The District offices and the areas covered by each District office are:

                      Location of
       District       District Office       States or Regions Covered by District Office
          1           Boston                Connecticut, Maine, Massachusetts, New Hampshire,
                                            Rhode Island, Vermont
           2          New York              New Jersey, New York, Puerto Rico, Virgin Islands
           3          Philadelphia          Delaware, Pennsylvania, West Virginia
           6          Jacksonville          Alabama, Florida, Georgia, Kentucky, Mississippi,
                                            North Carolina, South Carolina, Tennessee
            9         Cleveland             Indiana, Michigan, Ohio
           10         Chicago               Illinois, Minnesota, Wisconsin
           11         Kansas City           Iowa, Kansas, Missouri, Nebraska, all DOL employees
           12         Denver                Colorado, Montana, North Dakota, South Dakota, Utah,
                                            Wyoming


                                                 29
                                            SECTION 3B
                         Division of Federal Employees’ Compensation’s
                                      Description of Controls

                      Location of
       District       District Office        States or Regions Covered by District Office
         13           San Francisco          Arizona, California, Guam, Hawaii, Nevada
         14           Seattle                Alaska, Idaho, Oregon, Washington
         16           Dallas                 Arkansas, Louisiana, New Mexico, Oklahoma, Texas
         25           Washington, D.C.       District of Columbia, Maryland, Virginia,
                                             and overseas/special claims
          50          National Office        Branch of Hearings and Review

Subservicer

DFEC utilizes a subservicer, SunGard, to provide computer hardware and a communications network
between the National office, the District offices and the U.S. Treasury, to maintain a tape library and
disk drive backup and for other computer mainframe functions. SunGard’s controls and related
control objectives were omitted from the description of control objectives, tests of controls and
operating effectiveness contained in this report. Control objectives, tests of controls and operating
effectiveness included in this report include only the objectives that DFEC’s controls are intended to
achieve.




                                                  30
                                                  SECTION 3B
                             Division of Federal Employees’ Compensation’s
                                          Description of Controls

OVERVIEW OF THE CONTROL ENVIRONMENT

An organization’s control environment reflects the overall attitude, awareness and actions of
management and others concerning the importance of controls and the emphasis given to control in
the organization’s policies and procedures, methods, and organizational structure. The following is a
description of the key controls that are generally considered to be part of the control environment.

Organization and Management

OWCP is one of four offices within ESA. DFEC is one of five divisions within OWCP.

                             ESA, Office of Workers’ Compensation Programs

                                                                  Office of Workers’
                                                                    Compensation
                                                                       Programs



                                                   Regional
                                                  Directors for
                                                    OWCP



               Division of          Division of            Division of        Division of Coal    Division of
                Planning,            Federal              Longshore and       Mine Workers’        Energy
               Policy and           Employees’           Harbor Workers’       Compensation       Employees’
               Standards           Compensation           Compensation                           Compensation




   Branch of                           Branch of
    Policy,         Branch of          Resource
   Planning          Medical         Allocation and
      and         Standards and      Management
    Review        Rehabilitation        Support




                                        OWCP
                                       Mail Room




                                                           31
                                          SECTION 3B
                          Division of Federal Employees’ Compensation’s
                                       Description of Controls

DFEC has four branches:

1.       Branch of Regulations and Procedures - This Branch assists in developing claims and
         benefit payment policies, regulations and procedures; prepares and maintains the program's
         manuals; plans and conducts studies of claims and benefit payment functions; and
         participates in training activities and accountability reviews of District offices.

2.       Branch of Automatic Data Processing (ADP) Coordination and Control - This Branch
         provides ADP support services for the FECA program. It coordinates the overall ADP work
         of DFEC and provides policy direction for ADP systems activities.

3.       Branch of Technical Assistance - This Branch develops materials for use by District offices
         and other Federal agencies to educate Federal employees in reporting injuries and claiming
         compensation under the FECA. They also hold workshops for compensation personnel in
         various Federal agencies and for groups of employee representatives.

4.       Branch of Hearings and Review - This Branch is responsible for conducting hearings and
         reviews of the written record in FECA cases. Hearing Representatives issue decisions
         which sustain, reverse, modify, or remand cases to the OWCP District offices.

                     Division of Federal Employees’ Compensation (DFEC)



                                               Office of the Director
                                                   Deputy Director




                     Branch of        Branch of ADP              Branch of      Branch of
                   Regulations and     Coordination              Technical     Hearings and
                     Procedures        and Control               Assistance      Review




                                                32
                                             SECTION 3B
                          Division of Federal Employees’ Compensation’s
                                       Description of Controls

Branch Operations

A Branch Chief reports directly to the Deputy Director. The Director and Deputy Director coordinate
the operations of the 12 District offices.

District Offices

A District Director (DD) oversees the daily operations at each of the 12 District offices. The DD is
primarily assisted by an Assistant Director (in the larger District offices) that oversees the Claims
Section and a Fiscal Officer that oversees the Fiscal Section.

The District offices serve the persons residing within their districts. When an individual moves from
one district to another, the individual's case file and responsibility for monitoring the case is
transferred to the District office where the individual has moved, unless the case is for a claimant
specified as a special employee. Cases specified as special employee cases are always processed at
District office 50 (the National office).

The specific functions within the District offices are:

1.     Claims Functions. In each District office are two or more Supervisory Claims Examiners, who
       are responsible for the operation of individual claims units, and a number of Senior Claims
       Examiners and Claims Examiners (CE), who have primary responsibility for handling claims,
       including authorization of compensation and eligibility for medical benefits. Individuals at
       each level of authority from DD to CE have been delegated specific responsibilities for issuing
       decisions on claims.

2.     Fiscal Functions. Each District office usually has a Fiscal Operations Specialist and at least
       one Benefit Payment Clerk. Some District offices have a Bill Pay Supervisor as well. The
       unit is generally responsible for resolution of problems with medical bills, complex
       calculations of benefits and overpayments, adjustments to compensation and bill pay histories,
       changes in health benefits and life insurance coverage, and financial management records. In
       some District offices, fiscal personnel enter compensation payments into the electronic system.

3.     Medical Functions. Each District office usually has at least one District Medical Adviser
       (DMA) who works under contract to review individual cases, and some District offices have a
       District Medical Director (DMD) as well. Each District office also has a Medical Management
       Assistant, who arranges referrals to second opinion and referee specialists. Each District office
       also has a Staff Nurse, who is responsible for coordinating a number of Field Nurses who
       monitor claimant's medical progress and assist their efforts to return to work.




                                                    33
                                                      SECTION 3B
                              Division of Federal Employees’ Compensation’s
                                           Description of Controls

4.       Mail and File Functions. Personnel in this area open, sort, and place mail; set up case files,
         retire case records according to established schedules; and transfer case files in and out of
         the District office. OWCP also uses a centralized mailroom located in London, Kentucky,
         for routine mail. Mail such as Forms CA-1, CA-2, CA-7, CA-16, congressional inquiries
         and certain types of medical provider bills are processed by the District offices and not in
         the centralized mailroom.

5.       Vocational Rehabilitation Functions. Each District office has at least one Rehabilitation
         Specialist (RS) and usually a Rehabilitation Clerk. The RS manages a number of
         Rehabilitation Counselors, who work under contract with OWCP to help return claimants to
         suitable work, preferably with little or no loss of earnings. The emphasis of the
         rehabilitation program is on early referral and evaluation of all injured workers who need
         services; case management standards to ensure that plans are efficient and of good quality;
         flexibility to provide the widest range of services from private and public rehabilitation
         agencies; preference for reemployment with the previous employer; and placement of
         workers in jobs where disability does not prevent them from competing with non-disabled
         employees.



                                         DFEC District Office Structure1

                                                               Office of the
                                                                 District
                                                                 Director




                               Assistant                                              Branch of
                               District                                               Operations
                               Director                                                Support


                               Claims
                               Section                              Mail and             Fiscal               Medical
                                                                     File               Section               Section


                                                                                        Bill Pay
                                                                                        Section


     1
         The organizational structure regarding the Vocational Rehabilitation functions varies among the District offices.

                                                               34
                                            SECTION 3B
                          Division of Federal Employees’ Compensation’s
                                       Description of Controls

OVERVIEW OF TRANSACTION PROCESSING

Identification and Registration of the Recipient of FECA Benefits

Authorized recipients of FECA benefits are those individuals who meet all five eligibility criteria.
Injured workers submit claim information to the District office that serves the geographical location in
which the claimant resides. Claims are processed by the District office using the Case Management
File (CMF) system.

The CMF uses a standard identification number of nine characters to identify each case file. This
number is called the case number. All recipients of FECA benefits must have a unique case number
recorded in the CMF, some individuals could have multiple case numbers if the individual has
sustained more than one injury.

The CMF maintains an automated file with identification on all individuals who have filed claims with
FECA. These records contain data elements that identify the claimant, the mailing and/or location
address for the claimant, and additional injury and case status information.

Benefit Payments

FECA claimants may be entitled to compensation for injury and lost wages, schedule awards, death
benefits and payment of medical expenses related to the work-related injury or illness. The payments
for lost wages, schedule awards and death benefits are processed through the Automated
Compensation Payment System (ACPS), while the payments for medical expenses are processed
through the Bill Payment System (BPS). Each of these systems support the Department of Labor's
general ledger system.

The primary function of ACPS is to process the payment of weekly, monthly, and supplemental
benefits to claimants. The ACPS interfaces with the CMF to ensure that approved claims are
supported by a valid case number. District office personnel input compensation payment data
worksheets into the ACPS. The inputs onto the payment data worksheets are reviewed for accuracy
by a Senior Claims Examiner. If the information is correct, no further action is required, and
payments will be made during the next appropriate payment cycle.

Approved payments are stored in a temporary file for the duration of the appropriate compensation
payment cycle: Daily Roll (5 days), Death Benefits (28 days), or Disability (28 days). At the end of
the cycle, the mainframe runs automated programs to format the data to Treasury specifications, to
update the compensation payment history files for use in the Chargeback System, and to send
summarized information to the District office Fund Control System. The compensation payment data
are formatted and sent to Treasury via a secure modem over a dedicated line for payment processing.



                                                  35
                                            SECTION 3B
                          Division of Federal Employees’ Compensation’s
                                       Description of Controls

The primary function of the BPS is to process payments to medical service providers or
reimbursements to claimants for medical expenses incurred for the work-related injury or illness. The
National office has the responsibility of compiling the BPS data on a nightly basis as it is transmitted
from each District office. Medical bills containing charges for other than appliances, supplies,
services or treatment provided and billed for by nursing homes are subject to a medical fee schedule.
The mainframe will run a zip code check and a comparison check of the amount to be paid to fee
schedules in each geographical area. If the amount is in excess of the geographical fee schedule, the
system will limit the payment to the maximum amount in the fee range. Bills which fail certain edit
codes are identified by the system, excluded from payment and sent to a Bill Resolver at the District
office for further review.

Approved payments are stored in a temporary file for the duration of the bill payment cycle of 5 days.
At the end of the cycle, the mainframe runs programs that formats the data to Treasury’s
specifications, updates the bill payment history files for use in the Chargeback System, and sends
summarized information to the District office Fund Control System. The formatted bill payment data
is then sent to Treasury via a secure modem over a dedicated line for payment processing.




                                                  36
                                                                    SECTION 3B
                                    Division of Federal Employees’ Compensation’s
                                                 Description of Controls

The following charts set forth an overview of transaction processing at DFEC:

Processing of Compensation Payments
              CA-7, Claims for                                                                                 T-Cup
              compensation is                             CA-7 is                Data Entry                accesses CMF
               received in the                            imaged                 Operator                  to check for a
                 Mailroom                                   into                 keys dates                  valid case
                                                          OASIS                  into T-Cup                   number



                          Claims                                        Claims                               Electronic
                         Examiner                                      Examiner                              case file is
                        approves or                                     reviews                             accessed by
                        denies claim                                     CA-7                                  the CE




                       Claims Examiner
                       keys approved or
                       denied status into
                            ACPS
     Claim                                             Claim
     Denied                                           Accepted

           Claimant is                                                                                                         ACPS stores
                                                ACPS
         notified of case                                              Payment is             Payment is certified               approved
                                              accesses
                                                                        set up by               by a Sr CE or                  payments for
          determination                       CMF to
                                                                           CE                     equivalent                     overnight
                                            ensure case
                                                                                                                               transmission
                                            file number
                                                                                                                                to National
                                               is valid
                                                                                                                                mainframe




                                                                                              Mainframe
                        CE approves or                           CE reviews                   transmits                     Mainframe receives
                           does not                           payment computed                 payment                       payment data and
                           approve                              by Mainframe                    data to                     calculates payment
                          payment                                                              District                          schedule
                                                                                                office




      Claims Examiner                      Approved
                                         payments are                         Payments not
        re-inputs case                                                                                                  Payment
                                         submitted to                          changed are
      and resubmits for                                                                                              information is
                                           SrCE for                             considered
          processing                                                                                                 transmitted to
                                          verification                          acceptable
                                                                                                                        Treasury




                                                                         37
                                               SECTION 3B
                          Division of Federal Employees’ Compensation’s
                                       Description of Controls

Processing of Medical Payments

    Bill is received in          Bill is                  Bill is received
     District office              date                    by Data Entry         Data Entry
        mailroom                stamped                     personnel          personnel key
                                                                               payment into
                                                                                   BPS




                                                                  BPS          BPS accesses
                                                               performs        CMF to verify
                                                              edit checks       case number




                                                           BPS processes
                                                           disposition of
                                                            edit checks




                              SUSPENDED                     APPROVED                  DENIED




                             Suspended Items            Approved payments            Notice sent to
                                 Report                  are transmitted to        provider of denial
                                                        National Mainframe         and appeal rights
                                                             overnight

     Approved
                                Suspended
                                  bills are               Payment data is
                                 reviewed               received in National
                                  by Bill                      office
                                 Resolver

                                                    Payment is generated
                                                    and sent to provider


                              Bill Resolver
                               approves or
                                                                                      Denied
                             denies payment




                                                   38
                                            SECTION 3B
                          Division of Federal Employees’ Compensation’s
                                       Description of Controls

Computer-Generated Reports

BPS generates a summary report on a weekly basis. The report is a history of bill payments for the
week. This report can be utilized for investigative purposes as well as for confirming whether a
particular bill has been paid.

The ACPS generates a summary report on a daily basis which is a history of compensation payments.
This report can be utilized for investigative purposes as well as for confirming whether a particular
claim has been paid. The mainframe transmits updated ACPS history files to the District offices
where they are available for query purposes for 6 months. The mainframe retains the history files for
query purposes for 2 years before they are archived.

Chargeback System

The ACPS and BPS history files are combined on a quarterly and annual basis into the Chargeback
System (CBS). CBS is used to generate financial data that is interfaced into DOL’s core financial
management system, DOLAR$. CBS also provides a method for tracking intra-governmental
accounts receivable activity and for billing Federal agencies.

DFEC is required to furnish to each agency and instrumentality, before August 15th of each year, a
statement or bill showing the total cost of benefits and other payments made for the program year
which is from July 1 through June 30. CBS creates the bills which are sent to each employing agency
for benefits that have been paid on the agency's behalf.

Each agency is required to include in its annual budget estimates for the fiscal year beginning in the
next calendar year, a request for an appropriation for the amount of these benefits. These agencies are
to reimburse the Special Benefit Fund the amount appropriated for these benefits within 30 days after
the appropriation is available. If an agency is not dependent on an annual appropriation, then the funds
are to be remitted during the first 15 days of October following the issuance of the bill.

The bills sent to agencies contain identifying codes for both the fiscal year being billed and the fiscal
year in which the bill is to be paid. Each bill sent out in fiscal year 2002 and due in fiscal year 2003
would be coded as follows: 02-XXX-03. The 02 indicates the year the bill is generated, the XXX
indicates the numerical sequence of the bill, and the 03 indicates the year that the bill is due and
payable.

The Intra-Governmental Payment and Collection (IPAC) system is utilized to facilitate the electronic
billing between Federal agencies through Treasury. Agencies can use IPAC to complete payments by
choosing the IPAC payment option in Treasury’s GOALS II system and entering the required payment
information to complete the transaction and transfer funds.



                                                   39
                                            SECTION 3B
                          Division of Federal Employees’ Compensation’s
                                       Description of Controls

Third Party Settlements

An injury or death for which compensation is payable to a FECA claimant that is caused under
circumstances creating a legal liability on a person or persons other than the United States (a third
party) to pay damages will result in the case being classified as a third party case. Status codes are
used to track the progress of third party cases in the CMF. OWCP generally requires the claimant to
pursue legal action; however, the United States government can pursue action on its own by requiring
the beneficiary to assign rights of action to the United States.

A letter (CA-1045) is sent to a claimant by the CE when initial injury reports indicate a potential third
party liability. The CA-1045 requests information about the injury, the third party and the actions
taken by the claimant in regards to pursuing a claim against the third party, including the hiring of an
attorney.

When the CE receives a reply to the CA-1045 (or does not receive a reply 30 days after the second
request is sent to the claimant) or obtains the name and address of the attorney representing the
claimant, the case is processed by the CE (in the smaller District offices) or referred to a Designated
Claims Examiner (DCE) (in the larger District offices).

A case may be closed as "minor" and not pursued if the claimant has an injury where the total medical
bills, compensation and time lost from work do not exceed or are not expected to exceed $1,000.
Additionally, a case may only be closed as "minor" if the claimant has not responded to the CA-1045,
or has responded but is not personally asserting a third party claim and has not retained an attorney.

The DCE refers the case to the appropriate DOL, Office of the Solicitor (SOL) in the following
instances:
• the case is not minor and advice is received that the claimant is negotiating a settlement;
• advice is received that the claimant has retained an attorney to handle the third party action,
    regardless of the amount of disbursements;
• the case is not minor and the claimant refuses to pursue the third party claim or does not reply to
    the CA-1045; and,
• the case involves a death claim, a permanent disability, Job Corps, Peace Corps, VISTA, an injury
    occurring outside the United States or Canada, a common carrier as the potential defendant,
    malpractice, product liability or an injury to more than one employee.

Once referred to SOL, the DCE performs certain actions to ensure that the case is properly tracked
while at SOL. For instance, after the initial referral, an updated disbursement statement is furnished to
the SOL within 5 working days of receipt of the request. Termination or changes in periodic roll
payments must be reported to the SOL immediately. Additionally, the DCE requests a status report
from the SOL at 6-month intervals.



                                                   40
                                            SECTION 3B
                         Division of Federal Employees’ Compensation’s
                                      Description of Controls

When a settlement is reached in a third party case, the DCE prepares a Form CA-164 which is a
summary of all disbursements made to the claimant for compensation payments and to medical
providers on the claimants behalf, and forwards it to the Fiscal Section. If an amount owed from the
claimant is received by OWCP, the amount is credited against the ACPS and BPS, as appropriate. By
recording the amount in the ACPS and BPS, the proper employing agency is credited with the
amounts recovered from third party settlements.

If a full reimbursement from the third party refund is not received by OWCP from the claimant, an
accounts receivable balance is set up for the amount still due. If the amount recovered by the claimant
exceeds the amount already paid by OWCP to the claimant for compensation and medical benefits,
then the excess amount recovered by the claimant is recorded and tracked in the case file to prohibit
any additional benefits from being paid to the claimant until the amount of eligible benefits to the
claimant exceeds the excess amount.




                                                  41
                                            SECTION 3B
                          Division of Federal Employees’ Compensation’s
                                       Description of Controls

OVERVIEW OF COMPUTER INFORMATION SYSTEMS

The computerized accounting system used by the Federal Employee's Compensation Special Benefit
Fund maintains the data for each of the claimants applying for FECA benefits. The Federal
Employees' Compensation System (FECS) is the electronic data processing system for FECA benefits.
This computer system is comprised of the following five subsystems:

          •   Automated Compensation Payment System (ACPS)
          •   Medical Bill Payment System (BPS)
          •   Case Management File (CMF)
          •   Debt Management System (DMS)
          •   Chargeback System (CBS)

The FECS provides authorized users with on-line access to the various subsystems for file
maintenance and information purposes. Access to the FECS through computer terminals located in
the National and 12 District offices permits authorized users to perform a variety of functions, such as
query, add, and update claims data, track claims and overpayments, calculate retroactive benefit
payments and enroll approved claimants for benefits on the FECS.

In addition to storing information relevant to claims adjudication, benefit entitlement and payment
status, the FECS generates reports primarily used by management in administering the FECA
Program. The System also processes payments for covered medical expenses and monthly and
supplemental benefit payments to or on behalf of program beneficiaries.

Access to the FECS is limited to only certain employees, and their degree of access is based upon the
users’ functions within the program. The FECA ADP Security Officer within the Branch of ADP
Coordination and Control is responsible for assigning passwords and other procedures required to
permit access to the FECS at the National office; District System Managers are responsible for
assigning passwords and other procedures required to permit access to the FECS at the District office
level. Controls to restrict access to the FECS to authorized personnel, at both the National and District
office level include the following:

•   A security briefing is given for each person having access to the system;
•   Access and an access profile for authorized users are established through a security software
    package (Access Control Facility);
•   Computer Information Control System establishes terminal access to the host computer;
•   Log-on attempts are restricted to three attempts;
•   An audit trail report of unauthorized attempts to access the system is available;
•   Terminals are secured in locked rooms at the end of the work day; and
•   Written procedures exist for both physical hardware and software security.


                                                   42
                                            SECTION 3B
                         Division of Federal Employees’ Compensation’s
                                      Description of Controls

Organization and Administration

A System Administrator within DFEC’s Branch of ADP Coordination and Control is responsible for
overseeing all data processing activities at the National office level. DFEC has contracts with outside
computer consulting firms who provide software development and maintenance and network and
computer hardware maintenance for DFEC.

At each District office, a System Manager is responsible to the District Director and Regional Director
for overseeing all the data processing activity performed at the District office level (including user
access). The Systems Managers are under the supervision of the Division of Information Technology
Management and Services (DITMS). DITMS includes both Federal government employees and
outside contractors. The System Managers have access to system data for report generation and
submission purposes. The System Managers can only extract information from the database, not
change any of the source codes (i.e., programs).

The function of the DITMS is to maintain computer networks, operating systems and computer
hardware systems. The DITMS installs all of the data processing applications and modifications
developed by DFEC. In addition, DITMS employs and supervises all District office system managers
and subordinate staff.

Operations

DOL’s Directorate of Information Resource Management (DIRM) contracted with SunGard
eSourcing, Inc. (SunGard), for computer mainframe time-sharing services. SunGard provides
computer hardware and a communications network between the National office, the District offices
and the U.S. Treasury. In addition, SunGard maintains a tape library and disk drive backup.

FECS encompasses four levels of hardware, software, communications, supplies and facility
resources: SunGard mainframe, National office Sequent minicomputers, District office Sequent
minicomputers and the user and programmer development terminal personal computers with
authorized access into the mainframe or minicomputer system.

Formal operator and user manuals are available for some components of the system. The software
contains extensive input edit checks. Errors are automatically rejected by the system and queued for
review by the appropriate individuals. Reports that track the errors, including aging information, are
routinely produced.

Documentation

Hardware: DITMS maintains an extensive list of the hardware used in the FECS processing at all
sites.


                                                  43
                                          SECTION 3B
                         Division of Federal Employees’ Compensation’s
                                      Description of Controls

Software: DITMS maintains an extensive list of the third party software used in the FECS processing
which includes operating system software, compilers and utilities. DFEC is responsible for the
maintenance of FECS application software. OWCP requests hardware and software modifications,
DFEC designs and tests the modifications, and DITMS installs the modifications.

Acceptance testing is performed using an environment that closely copies the development
environment. The procedures used for the acceptance testing varies according to subsystem. No
formal documentation of the acceptance testing is maintained. However, DFEC maintains a history of
all prior source code versions which provides evidence of all modifications of the source code.

The System Administrator has two assistants. One is responsible for computer design development,
programming and analysis, and the other is responsible for evaluating the testing of all new and
modified source codes (programming) including the distribution to the District offices and the
supervision of all staff programmers.

Anti-Virus Control

The FECS currently runs a variety of anti-virus or virus checking routines. Each file server runs an
anti-virus module resident on the server. Anti-virus software is used to scan disks to identify and
remove viruses. All of the personal computers utilize anti-virus software that can be run in a
scheduled or unscheduled ad hoc mode.




                                                44
                                             SECTION 3B
                          Division of Federal Employees’ Compensation’s
                                       Description of Controls

CONTROL OBJECTIVES AND RELATED CONTROLS

DFEC's control objectives and related controls are included in Section 3C of this report, "Information
Provided by the Service Auditor," to eliminate the redundancy that would result from listing them
here. Although the control objectives and related controls are included in Section 3C, they are,
nevertheless, an integral part of DFEC's description of controls.

USER CONTROL CONSIDERATIONS

DFEC's processing of transactions and the controls over transaction processing were designed with the
assumption that certain internal controls would be in operation at user organizations to complement
the controls at DFEC. User auditors should determine whether user organizations have established
internal controls that ensure the following:
• Employing agencies understand their responsibilities under FECA.
• Employing agencies provide injured employees with accurate and appropriate information
    regarding injuries covered under FECA, including the employees' rights and obligations and claim
    forms.
• Employing agencies timely and accurately report all work-related injuries and deaths to DFEC via
    the injury and death reporting forms such as the CA-1, CA-2, and CA-5, once completed by
    injured employee or claimant in the case of death. Supervisors should encourage persons
    witnessing injuries to record and report what was witnessed to DFEC.
• Employing agencies provide complete and accurate information regarding a claimant’s rate of pay,
    hours worked, leave taken, and continuation of pay to DFEC.
• Employing agencies promptly controvert questionable claims.
• Employing agencies monitor the medical status of injured employees to be aware of what work the
    injured employee is capable of to enable the employing agency to provide additional information
    on the requirements of a position, or modified position, when applicable.
• Employing agencies assist DFEC in returning employees to work by establishing or identifying
    positions, either modified or light-duty, to return the injured employee to work as early as possible.
    The employing agency also needs to inform DFEC directly of the positions available.
• Employing agencies review the chargeback coding notification (postcard) sent by DFEC when an
    injury report is received to ensure the individual will be charged to the proper agency and
    department.
• Employing agencies review quarterly chargeback billings to ensure that each injured employee
    charged to their department and agency are employees or former employees of the agency, and
    that the amounts charged for compensation costs appear reasonable in light of the injured
    employee's compensation and the date of injury.




                                                   45
                                             SECTION 3C
                            Information Provided by the Service Auditor

OVERVIEW OF INFORMATION PROVIDED

This report is intended to provide users of the FECA Special Benefit Fund with information about the
controls at the DFEC that may affect the processing of user organizations' transactions, general
computer controls and also to provide users with information about the operating effectiveness of the
controls that were tested. This report, when combined with an understanding and assessment of the
internal controls at user organizations, is intended to assist user auditors in (1) planning the audit of
the user organizations' financial statements and (2) assessing control risk for assertions in user
organizations' financial statements that may be affected by controls at DFEC.

Our testing of DFEC's internal controls was restricted to the control objectives and the related controls
listed in this section of the report and was not extended to procedures described in Section 3B but not
included in this section or to procedures that may be in effect at user organizations. It is each user
auditor's responsibility to evaluate this information in relation to the internal controls in place at each
user organization. If certain complementary controls are not in place at user organizations, DFEC's
internal controls may not compensate for such weaknesses.

TESTS OF CONTROL ENVIRONMENT ELEMENTS

The control environment represents the collective effect of various elements in establishing, enhancing
or mitigating the effectiveness of specific controls. In addition to tests of operating effectiveness of
the controls listed in this section of this report, our procedures also included tests of and consideration
of the relevant elements of the DFEC's control environment including:
               • DFEC's organizational structure and the segregation of duties
               • Management control methods
               • Management policies and procedures

Such tests included inquiry of appropriate management, supervisory, and staff personnel; inspection of
DFEC's documents and records, and observation of DFEC's activities and operations. The results of
these tests were considered in planning the nature, timing, and extent of our tests of the specified
controls related to the control objectives described within this report.

TESTS OF GENERAL COMPUTER CONTROLS

The Department of Labor, Office of Inspector General, adopted an Information Technology Rotation
Strategy which targets specific DOL financial and financial-related systems for reviews to be
performed during each audit cycle. The intent of the Audit Rotation Strategy is to ensure that all
critical applications are given a complete FISCAM audit over an approximately 5-year period. Based
on the review of prior year results, not every general control will be tested yearly. The strategy is
reviewed and updated annually to ensure risk considerations are addressed. In FY 2003 audit
procedures related to general computer controls were performed in the areas of Entity-wide Security
Program Planning and Management, Access Controls, and Service Continuity on the Federal
Employees’ Compensation System in accordance with the FISCAM.

                                                    46
                                             SECTION 3C
                            Information Provided by the Service Auditor

SAMPLING METHODOLOGY

To facilitate the testing of transaction processing controls, we developed a sampling plan as outlined
below.

We performed tests on a sample of compensation for lost wages, schedule awards, death benefits and
medical benefit payments paid during the period October 1, 2002, to April 30, 2003, at 5 of 12 District
offices. The sample design involved a two-stage process.

The first stage in our sample design was the selection of District offices. District offices were
randomly selected by first forming two strata of the districts and then taking all the districts from the
first strata, and selecting two districts from the second strata. This procedure resulted in the selection
of five District offices. The five District offices comprised approximately $796 million of the
$1.398 billion or 57 percent, of FECA payments during the seven month period ended April 30, 2003.

The second stage of the sample design was the selection of sampling units. The sampling units were a
medical bill or the total compensation payments paid to a single case number for the sampling period.
The universe of the sample districts was stratified into 13 strata for the compensation payments and
into 12 strata for the medical payments. The sample size was determined for each of the 13 strata for
compensation and 12 strata for the medical payments using the following parameters:

              •   Total number of items and dollar value of the strata universe;
              •   Estimated variance within each strata;
              •   95% confidence level (5% risk of incorrect acceptance);
              •   Variable sampling precision (2% to 7%) of the point estimate; and

Using statistical formulas, these parameters yielded a total sample of 416 items. Of the total sample,
238 were medical payments and 178 were compensation payments. The sample items were then
randomly selected.

Our detailed substantive testing was performed at the following District offices with the following
number of items tested:
                                                                Number of
          District Office                                     Statistical Items
          Philadelphia                                                  78
          Jacksonville                                                  89
          Denver                                                        72
          San Francisco                                                 98
          Washington                                                    79
          Total                                                       416




                                                   47
                                              SECTION 3C
                            Information Provided by the Service Auditor

Our testing at the District offices consisted of control tests in the following categories:

       •   Case Creation
       •   Initial Eligibility
       •   File Maintenance
       •   Continuing Eligibility - Medical Evidence
       •   Continuing Eligibility - Earnings Information
       •   Payment Processing
       •   Schedule Awards
       •   Death Benefits
       •   Medical Bill Payment Processing
       •   Third Party Settlements

The number of sample items for control tests was statistically selected based on the sampling plan
detailed previously. The number of sample items tested was determined based on the number of items
to which the test of controls applied. The control tests would not be applicable to some sample items
due to factors such as the age of the injury. Additional testing was performed on items that were
selected in a non-statistical method as follows:

Initial Eligibility Cases

Audit queries were generated which determined all of the cases in which claimants were injured and
began receiving compensation during the sampling period of October 1, 2002, to April 30, 2003. From
a population of 19,855 initial eligibility cases in the 5 District offices tested, 10 cases per District
office, for a total sample of 50, were selected. We reviewed the case files to ensure that the proper
procedures had been followed in determining whether or not the claimants were eligible to receive
benefit payments and whether benefit payments were paid at the correct amount.

Multiple Claim Payments

Audit queries were generated which compared certain elements of each compensation payment made
during the period October 1, 2002, through April 30, 2003. The query compared case files in which
the social security number was the same for multiple case files. This situation would normally occur
when an employee has suffered more than one injury, as a separate case number is assigned for each
injury. We selected a sample of 50 multiple claim compensation payment items to be tested and
analyzed the payments to ensure that a claimant was not receiving excessive or overlapping
compensation.

Third Party

Audit queries were generated which determined all claimants that had a third party status indicator in
the CMF. We then randomly selected 50 cases from a population of 263 cases with third party
indicators, active within the sampling period, in the District offices in which test work was to be
performed.
                                                     48
                                                 SECTION 3C
                                 Information Provided by the Service Auditor

Current Medical Evidence

Audit queries were generated which determined all claimants with a short-term disability status, on
which compensation was currently being paid, but for which no medical payments were made in the
past 2 years, to determine which cases may not have current medical evidence. We then randomly
selected 50 cases from a population of 10,572 cases which met our query definition, in the District
offices in which testwork was to be performed.

Summary of Sample Items

The following sample items were selected for substantive testing of transactions:

                                                                            San              Sub-         Sub-
      Sample Type            Philadelphia   Jacksonville        Denver                D.C.                        Total
                                                                         Francisco           total        total
Lost Wages (S)                     30            31               22        29         19     131
Death (S)                          1              1                0         5          9      16          178
Schedule Award (S)                                                                                                 416
                                   1              8                6         8          8      31
Medical Bills (S)                  46            49               44        56         43            238
Initial Eligibility (N)            10            10               10        10         10            50
                                                                                                                   100
Multiple Claim (N)                 10            10               10        10         10            50
Potential Duplicates(N)             -            10               10        10         20                          50


The following sample items were selected for testing of internal controls:


                                                                         San                 Sub-      Sub-
Sample Type                  Philadelphia   Jacksonville        Denver               D.C.                         Total
                                                                         Francisco           total     total
Lost Wages (S)                     22            23               20        19         15      99
Death (S)                          1              1                0         5          9      16          146
Schedule Award (S)                 1              8                6         8          8      31                  265
Medical Bills (S)                  23            24               24        24         24            119
Initial Eligibility (N)            10            10               10        10         10                          50
Third Party (N)                     6            10               10        10         14                          50
Current Medical (N)                10            10               10        10         10                          50

(S) – Statistically selected sample
(N) – Non-statistically selected sample




                                                           49
                                              SECTION 3C
                             Information Provided by the Service Auditor

CONTROL OBJECTIVES, RELATED CONTROLS, AND TESTS OF CONTROLS

This section presents the following information provided by the DFEC:

•   The control objectives specified by management of DFEC.

•   The controls established and specified by DFEC to achieve the specified control objectives.

Also included in this section is the following information provided by the service auditor:

•   A description of the tests performed in regard to the described controls by the service auditor to
    determine whether DFEC's controls were operating with sufficient effectiveness to achieve stated
    control objectives.

•   The results of the service auditors' tests of the described controls.




                                                     50
                                            SECTION 3C
                           Information Provided by the Service Auditor
                                  General Computer Controls
Control Objective: General Computer Controls - Controls provide reasonable assurance that DFEC
has generally established computer controls over entity-wide security program planning and
management, access controls, application software development and change controls, segregation of
duties, systems software, and service continuity.

Description of Controls

Entity-wide Security Program Planning and Management

ESA, of which DFEC is a division, periodically assesses risk through independent risk assessments
that are performed and documented on a regular basis or whenever systems, facilities, or other
conditions change. The risk assessments consider data sensitivity and integrity and range of risks to
the entity's systems and data; and, final risk determinations and related management approvals are
documented and maintained on file.

ESA has a security program plan that: covers all major facilities and operations, has been approved by
key affected parties, and covers the topics prescribed by OMB Circular A-130 (general support
systems/major applications): Rules of the system/Application rules; Training/Specialized training;
Personnel controls/Personnel security; Incident response capability/Continuity of support/Contingency
planning; Technical security/Technical controls; System interconnectivity/Information sharing; public
access controls; access controls; application software development and change controls; segregation of
duties; systems software; and service continuity. The plan is reviewed periodically and adjusted to
reflect current conditions and risks.

ESA’s security program plan establishes a security management structure with adequate
independence, authority, and expertise. An Information Systems Security Manager has been
appointed at an overall level and at appropriate subordinate levels.

The security plan clearly identifies who owns computer-related resources and who is responsible for
managing access to computer resources. Security responsibilities and expected behaviors are clearly
defined for: (1) information resource owners and users; (2) information resources management and
data processing personnel; (3) senior management; and (4) security administrators.

ESA has implemented an ongoing security awareness program that includes first-time training for all
new employees, contractors, and users, and periodic refresher training thereafter. Security policies are
distributed to all affected personnel, including system/application rules and expected behaviors.

ESA's incident response capability has the characteristics suggested by industry standards which are:
use of virus detection software; an understanding of the constituency being served; an educated
constituency that trusts the incident handling team; a means of prompt centralized reporting; response
team members with the necessary knowledge, skills, and abilities; and links to other relevant groups.




                                                  51
                                                   SECTION 3C
                               Information Provided by the Service Auditor
                                      General Computer Controls
Regularly scheduled vacations exceeding several days are encouraged, and the individual's work is
temporarily reassigned. Termination and transfer procedures include: exit interview procedures; return
of property, keys, identification cards, passes, etc.; notification to security management of
terminations and prompt revocation of IDs and passwords; immediately escorting terminated
employees out of the entity's facilities; and identifying the period during which non-disclosure
requirements remain in effect.
Skill needs are accurately identified and included in job descriptions, and employees meet these
requirements. A training program has been developed. Employee training and professional
development are documented and monitored.
ESA’s Information Systems security program is subject to periodic reviews. Major systems and
applications are accredited by the managers whose missions they support.
Tests of Described Controls                                                Results of Tests
Reviewed risk assessment policies, the most recent high-level risk         No exceptions were noted.
assessment, and the objectivity of personnel who performed and reviewed
the assessment.

Reviewed the security plan and determined whether the plan covered the     No exceptions were noted.
topics prescribed by OMB Circular A-130 and reviewed any related
documentation which indicated that the security plan had been reviewed
and updated, and was current.

Interviewed the security management staff and Security Manager to          No exceptions were noted.
determine whether the entity had a security plan and organization chart.

Reviewed documentation supporting or evaluating the security awareness     No exceptions were noted.
program, memos, electronic mail files, or other policy distribution
mechanisms, and personnel files to test whether security awareness
statements are current.

Interviewed data owners and system users to determine what training        All 19 newly hired FECA employees had no
newly hired employees had received and if they were aware of their         evidence that initial security training had been
security-related responsibilities.                                         completed. No other exceptions were noted.

Interviewed the Security Manager, response team members, and system        No exceptions were noted.
users to determine whether an incident response capability has been
implemented.

Reviewed documentation supporting incident handling activities.            No exceptions were noted.

Reviewed hiring policies, reinvestigation policies, policies on            DOL Human Resources has not established
confidentiality or security agreements, vacation policies, job rotation    policies or procedures for ESA to follow
policies, staff assignment records, and other pertinent policies and       concerning       background  checks     or
procedures.                                                                reinvestigations. No other exceptions were
                                                                           noted.

For a selection of recent hires, inspect personnel records and determine   DOL Human Resources has not established
whether references have been contacted and background checks               policies or procedures for ESA to follow
performed. For a selection of sensitive positions, inspect personnel       concerning       background  checks     or
records and determine whether background reinvestigations have been        reinvestigations. No other exceptions were
performed.                                                                 noted.

                                                          52
                                                    SECTION 3C
                                Information Provided by the Service Auditor
                                       General Computer Controls
Tests of Described Controls                                                 Results of Tests

Determined whether confidentiality or security agreements are on file for   DOL Human Resources has no policies or
a selection of users. For a selection of terminated or transferred          procedures for FECA to follow concerning
employees examine documentation showing compliance with policies.           confidentiality agreements for DOL employees.
Compared a system generated list of users to a list of active user          No other exceptions were noted.
employees.

Reviewed job descriptions for security management personnel and a           No exceptions were noted.
selection of other personnel. For a selection of employees, compared
personnel records on education and experience with job descriptions.
Reviewed training program documentation, training records, and other
related documentation for selected personnel.

Reviewed reports resulting from recent assessments (including the most      An independent review of the FECS controls
recent FMFIA report), written authorizations or accreditation statements,   has not been conducted by OWCP. No other
and documentation related to corrective actions. Determined when last       exceptions were noted.
independent review occurred.

Reviewed the status of prior year audit recommendations to determine if     ESA has implemented corrective action plans.
corrective actions have been implemented.

Access Controls

Classifications and criteria have been established and communicated to resource owners. Resources
are classified based on risk assessments; classifications are documented and approved by an
appropriate senior official and are periodically reviewed.

Access authorizations are documented on standard forms and maintained on file, approved by senior
managers, and securely transferred to security managers. Owners periodically review access
authorization listings and determine whether they remain appropriate. The number of users who can
dial into the system from remote locations is limited and justification for such access is documented
and approved by owners.

Security managers review access authorizations and discuss any questionable authorizations with
resource owners. All changes to security profiles by security managers are automatically logged and
periodically reviewed by management independent of the security function. Unusual activity is
investigated. Security is notified immediately when system users are terminated or transferred.

Emergency and temporary access authorizations are documented on standard forms and maintained on
file, approved by appropriate managers, securely communicated to the security function; and
automatically terminated after a predetermined period.

Standard forms are used to document approval for archiving, deleting, or sharing data files. Prior to
sharing data or programs with other entities, agreements are documented regarding how those files are
to be protected. Facilities housing sensitive and critical resources have been identified. All significant
threats to the physical well-being of sensitive and critical resources have been identified and related
risks determined. Access is limited to those individuals who routinely need access through the use of
guards, identification badges, or entry devices, such as key cards. Management regularly reviews the
list of persons with physical access to sensitive facilities. Keys or other access are needed to enter the
                                                           53
                                               SECTION 3C
                             Information Provided by the Service Auditor
                                    General Computer Controls
computer room and tape/media library. All deposits and withdrawals of tapes and other storage media
from the library are authorized and logged. Unissued keys or other entry devices are secured.
Emergency exit and re-entry procedures ensure that only authorized personnel are allowed to reenter
after fire drills, etc.

Visitors to sensitive areas, such as the main computer room and tape/media library, are formally
signed in and escorted. Entry codes are changed periodically. Visitors, contractors, and maintenance
personnel are authenticated through the use of preplanned appointments and identification checks.

Passwords are unique for specific individuals, not groups; controlled by the assigned user and not
subject to disclosure; changed periodically; not displayed when entered; at least six alphanumeric
characters in length; and prohibited from reuse for at least six generations. Use of names or words is
prohibited. Vendor-supplied passwords are replaced immediately. Generic user IDs and passwords
are not used. Attempts to log on with invalid passwords are limited to three attempts.

Personnel files are automatically matched with actual system users to remove terminated or
transferred employees from the system. Password files are encrypted. For other devices, such as
tokens or key cards, users maintain possession of their individual tokens, cards, etc., and understand
that they must not loan or share these with others and must report lost items immediately.

An analysis of the logical access paths is performed whenever system changes are made. Security
software is used to restrict access. Access to security software is restricted to security administrators
only. Computer terminals are automatically logged off after a period of inactivity. Inactive users'
accounts are monitored and removed when not needed. Security administration personnel set
parameters of security software to provide access as authorized and restrict access that has not been
authorized. This includes access to data files, load libraries, batch operational procedures, source
code libraries, security files, and operating system files. Naming conventions are used for resources.

Database management systems (DBMS) and data dictionary controls have been implemented that
restrict access to data files at the logical data view, field, or field-value level; control access to the data
dictionary using security profiles and passwords; maintain audit trails that allow monitoring of
changes to the data dictionary; and provide inquiry and update capabilities from application program
functions, interfacing DBMS or data dictionary facilities. Use of DBMS utilities is limited. Access
and changes to DBMS software are controlled. Access to security profiles in the data dictionary and
security tables in the DBMS is limited.

Communication software has been implemented to verify terminal identifications in order to restrict
access through specific terminals; verify IDs and passwords for access to specific applications; control
access through connections between systems and terminals; restrict an application's use of network
facilities; protect sensitive data during transmission; automatically disconnect at the end of a session;
maintain network activity logs; restrict access to tables that define network options, resources, and
operator profiles; allow only authorized users to shut down network components; monitor dial-in
access by monitoring the source of calls or by disconnecting and then dialing back at pre-authorized
phone numbers; restrict in-house access to telecommunications software; control changes to
telecommunications software; ensure that data are not accessed or modified by an unauthorized user
during transmission or while in temporary storage; and restrict and monitor access to
telecommunications hardware or facilities.
                                                      54
                                                      SECTION 3C
                                 Information Provided by the Service Auditor
                                        General Computer Controls
In addition to logical controls: the opening screen viewed by a user provides a warning and states that
the system is for authorized use only and that activity will be monitored, dial-in phone numbers are
not published and are periodically changed, cryptographic tools have been implemented to protect the
integrity and confidentiality of sensitive and critical data and software programs. Procedures have
been implemented to clear sensitive data and software from discarded and transferred equipment and
media. All activity involving access to and modifications of sensitive or critical files is logged.

Security violations and activities, including failed logon attempts, other failed access attempts, and
sensitive activity, are reported to management and investigated. Security managers investigate security
violations and report results to appropriate supervisory and management personnel. Appropriate
disciplinary actions are taken. Violations are summarized and reported to senior management. Access
controls are modified when violations and related risk assessments indicate that such changes are
appropriate.
Tests of Described Controls                                                           Results of Tests

Reviewed policies and procedures and resource classification documentation            No exceptions were noted.
and compared to risk assessments.          Discussed any discrepancies with
appropriate officials. Interviewed resource owners.

Reviewed pertinent written policies and procedures. For a selection of users,         Network Access Request Forms were
(both application user and IS personnel), reviewed access authorization               not on file for 17 of 19 newly hired
documentation. Interviewed owners and reviewed supporting documentation.              FECA users. No other exceptions were
Determined whether inappropriate access was removed in a timely manner. For           noted.
a selection of users with dial-up access, reviewed authorization and justification.
Interviewed security managers and reviewed documentation provided to them.
Reviewed a selection of recent profile changes and activity logs. Obtained a list
of recently terminated employees from Personnel, and for a selection,
determined whether system access was properly terminated.

Compared a selection of both expired and active temporary and emergency               No exceptions were noted.
authorizations (obtained from the authorizing parties) with a system-generated
list of authorized users.       Determined the appropriateness of access
documentation.

Examined standard approval forms and documents authorizing file sharing and           Standard Data Sharing Forms were not
file sharing agreements. Interviewed data owners.                                     provided. No other exceptions were
                                                                                      noted.

Reviewed a diagram of the physical layout of the computer telecommunications          No exceptions were noted.
and cooling system facilities. Walked through facilities.
                                                                                      No exceptions were noted.
Reviewed access path diagram.

Observed entries to and exits from the facilities, including sensitive areas during   No exceptions were noted.
and after normal business hours, utilities access paths, practices for safeguarding
keys and other devices and a fire drill. Inspected a log sheet. Reviewed written
emergency procedures

Selected from the log some returns and withdrawals, verified the physical             No exceptions were noted.
existence of the tape or other media, and determined whether proper
authorization was obtained for the movement.

                                                              55
                                                     SECTION 3C
                                 Information Provided by the Service Auditor
                                        General Computer Controls
Tests of Described Controls                                                          Results of Tests

Reviewed visitor entry logs. Observed entries to and exits from sensitive areas      No exceptions were noted.
during and after normal business hours. Interviewed guards at facility entry.
Reviewed documentation on and logs of entry code changes. Observed
appointment and verification procedures for visitors.

Reviewed security software parameters. Observed an attempt to log on without         No exceptions were noted.
a valid password; make repeated attempts to guess passwords. Reviewed a
system generated list of current passwords. Assessed procedures for generating
and communicating passwords to users. Viewed Dump of password files.
Reviewed computer room access policy and procedures to evaluate
sophisticated authentication techniques.

Observed terminals in use. Reviewed a system generated list of inactive logon        ESA’s network does not have an idle
IDs. Determined who had access to security files and whether naming                  time network log out feature activated.
conventions are used. Interviewed database administrators. Reviewed database         No other exceptions were noted.
security parameters.

Reviewed pertinent policies and procedures. Viewed the opening screen by             No exceptions were noted.
telecommunication system users. Reviewed documentation showing changes to
dial-in numbers. Run entity’s telephone directory to verify that numbers are not
listed

Evaluated Cryptographic tools.                                                       No exceptions were noted.

Reviewed written procedures. Interviewed personnel responsible for clearing          No exceptions were noted.
equipment and media. For a selection of recently discarded or transferred items,
examined documentation related to clearing of data and software.

Reviewed security software settings to identify types of activity logged, security   No exceptions were noted.
violation reports and documentation showing reviews of questionable activities.

Reviewed how access control policies and procedures are changed. Tested a            No exceptions were noted.
selection of security violations to verify that follow-up investigations were
performed and to determine what actions were taken against the perpetrator.

Application Software Development and Change Control

System Development Life Cycle (SDLC) methodology has been developed that provides a structured
approach consistent with generally accepted concepts and practices, including active user involvement
throughout the process, is sufficiently documented to provide guidance to staff with varying levels of
skill and experience, provides a means of controlling changes in requirements that occur over the
system's life, and includes documentation requirements.        Program staff and staff involved in
developing and testing software have been trained and are familiar with the use of the organization's
SDLC methodology.

Software change request forms are used to document requests and related approvals. Change requests
must be approved by both system users and data processing staff. Clear policies restricting the use of
personal and public domain software have been developed and are enforced. DFEC uses virus
identification software.

                                                             56
                                                    SECTION 3C
                                Information Provided by the Service Auditor
                                       General Computer Controls
Test plan standards have been developed for all levels of testing that define responsibilities for each
party (e.g., users, system analysts, programmers, auditors, quality assurance, library control). Detailed
system specifications are prepared by the programmer and reviewed by a programming supervisor.
Software changes are documented so that they can be traced from authorization to the final approved
code, and they facilitate the "trace-back" of code to design specifications and functional requirements
by system testers. Test plans are documented and approved that define responsibilities for each party
involved (e.g., users, systems analysts, programmers, auditors, quality assurance, library control).
Unit integration, and system testing are performed and approved in accordance with the test plan and
applying a sufficient range of valid and invalid conditions.

A comprehensive set of test transactions and data has been developed that represents the various
activities and conditions that will be encountered in processing. Live data is not used in testing
program changes, except to build test data files. Test results are reviewed and documented. Program
changes are moved into production only upon documented approval from users and system
development management.

Documentation is updated for software, hardware, operating personnel, and system users when a new
or modified system is implemented. Data center management and/or the security administrators
periodically review production program changes to determine whether access controls and change
controls have been followed.

Emergency changes are documented and approved by the operations supervisor, formally reported to
computer operations management for follow-up, and approved after the fact by programming
supervisors and user management.

Standardized procedures are used to distribute new software for implementation. Implementation
orders, including effective date, are provided to all locations where they are maintained on file.
Library management software is used to produce audit trails of program changes, maintain program
version numbers, record and report program changes, maintain creation/date information for
production modules, maintain copies of previous version, and control concurrent updates.

Tests of Described Controls                                                         Results of Tests

Reviewed prior year FISCAM audit work papers to determine nature, timing            No exceptions were noted.
and extent of the testing performed related to application software development
and change control and results of testing.

Reevaluated plan for rotation testing of controls to determine any limitations or   No control changes noted. Rotation
modifications applicable for FY2003. Interviewed senior management to update        plan is reasonable.
understanding of controls in the current fiscal year.




                                                            57
                                            SECTION 3C
                           Information Provided by the Service Auditor
                                  General Computer Controls
System Software

Policies and procedures for restricting access to systems software are kept up-to-date. Access to
system software is restricted to a limited number of personnel, corresponding to job responsibilities.
Application programmers and computer operators are specifically prohibited from accessing system
software. Documentation showing justification and management approval for access to system
software is kept on file. The access capabilities of system programmers are periodically reviewed for
propriety to see that access permissions correspond with job duties.

Policies and procedures for using and monitoring use of system software utilities are kept up-to-date.
Responsibilities for using sensitive system utilities have been clearly defined and are understood by
systems programmers. Responsibilities for monitoring use are defined and understood by technical
management. The use of sensitive system utilities is logged using access control software reports or
job accounting data (e.g., IBM's System Management Facility).

The use of privileged system software and utilities is reviewed by technical management.
Inappropriate or unusual activity in using utilities is investigated. System programmers' activities are
monitored and reviewed. Management reviews are performed to determine that control techniques for
monitoring use of sensitive system software are functioning as intended and that the control
techniques in place are maintaining risks within acceptable levels (e.g., periodic risk assessments).

Policies and procedures are kept up-to-date for identifying, selecting, installing, and modifying system
software. Procedures include an analysis of costs and benefits and consideration of the impact on
processing reliability and security. Procedures exist for identifying and documenting system software
problems. This should include using a log to record the problem, the name of the individual assigned
to analyze the problem, and how the problem was resolved.

New system software versions or products and modifications to existing system software receive
proper authorization and are supported by a change request. New system software versions or
products and modifications to existing system software are tested, and the test results are approved
before implementation.

Procedures include: a written standard that guides the testing, which is conducted in a test rather than
production environment; specification of the optional security-related features to be turned on, when
appropriate; review of test results by technically qualified staff who document their opinions on
whether the system software is ready for production use; and review of test results and documented
opinions by data center management prior to granting approval to move the system software into
production use.

Procedures exist for controlling emergency changes. Procedures include: authorizing and documenting
emergency changes as they occur; reporting the changes for management review; and review by an
independent IS supervisor of the change.

Installation of system software is scheduled to minimize the impact on data processing and advance
notice is given to system users. Migration of tested and approved system software to production use is
performed by an independent library control group. Outdated versions of system software are
                                                  58
                                                    SECTION 3C
                                Information Provided by the Service Auditor
                                       General Computer Controls
removed from production libraries. Installation of all system software is logged to establish an audit
trail and reviewed by data center management. Vendor-supplied system software is still supported by
the vendor. All system software is current and has current and complete documentation.

Tests of Described Controls                                                         Results of Tests

Reviewed prior year FISCAM audit work papers to determine nature, timing            No exceptions were noted.
and extent of the testing performed related to systems software and results of
testing.

Reevaluated plan for rotation testing of controls to determine any limitations or   No control changes noted.   Rotation
modifications applicable for FY2003. Interviewed senior management to update        plan is reasonable.
understanding of controls in the current fiscal year.

Segregation of Duties

Policies and procedures for segregating duties exist and are up-to-date. Distinct systems support
functions are performed by different individuals, including the following: IS management, system
design, application programming, systems programming, quality assurance/testing, library
management/change management, computer operations, production control and scheduling, data
control, data security, data administration, and network administration.

No individual has complete control over incompatible transaction processing functions. Specifically,
the following combination of functions are not performed by a single individual: data entry and
verification of data, data entry and its reconciliation to output, input of transactions for incompatible
processing functions (e.g., input of vendor invoices and purchasing and receiving information), and
data entry and supervisory authorization functions (e.g., authorizing a rejected transaction to continue
processing that exceeds some limit requiring a supervisor's review and approval).

Data processing personnel are not users of information systems. They and security managers do not
initiate, input, or correct transactions. Day-to-day operating procedures for the data center are
adequately documented and prohibited actions are identified. Regularly scheduled vacations and
periodic job/shift rotations are required.

Documented job descriptions accurately reflect assigned duties and responsibilities and segregation of
duty principles. Documented job descriptions include definitions of the technical knowledge, skills,
and abilities required for successful performance in the relevant position and can be used for hiring,
promoting, and performance evaluation purposes.

All employees fully understand their duties and responsibilities and carry out those responsibilities in
accordance to their job descriptions. Senior management is responsible for providing adequate
resources and training to ensure that segregation of duty principles are understood and established,
enforced, and institutionalized within the organization. Responsibilities for restricting access by job
positions in key operating and programming activities are clearly defined, understood, and followed.

Staff's performance is monitored on a periodic basis and controlled to ensure that objectives USAID
out in job descriptions are carried out. Management reviews are performed to determine that control
techniques for segregating incompatible duties are functioning as intended and that the control
techniques in place are maintaining risks within acceptable levels (e.g., periodic risk assessments).
                                                            59
                                                      SECTION 3C
                                 Information Provided by the Service Auditor
                                        General Computer Controls
Detailed, written instructions exist and are followed for the performance of work. Operator instruction
manuals provide guidance on system operation. Application run manuals provide instruction on
operating specific applications. Operators are prevented from overriding file label or equipment error
messages.

Personnel are provided adequate supervision and review, including each shift for computer operations.
All operator activities on the computer system are recorded on an automated history log. Supervisors
routinely review the history log and investigate any abnormalities. System startup is monitored and
performed by authorized personnel. Parameters set during the initial program load (IPL) are in
accordance with established procedures.

Tests of Described Controls                                                           Results of Tests

Reviewed prior year FISCAM audit work papers to determine nature, timing              No exceptions were noted.
and extent of the testing performed related to segregation of duties and results of
testing.

Reevaluated plan for rotation testing of controls to determine any limitations or     No control changes noted. Rotation
modifications applicable for FY2003. Interviewed senior management to update          plan is reasonable.
understanding of controls in the current fiscal year.

Service Continuity

ESA has drafted a disaster recovery plan which lists critical operations and data and that prioritizes
data and operations, reflects current conditions and identifies and documents resources supporting
critical operations such as computer hardware, computer software, computer supplies, system
documentation, telecommunications, office facilities and supplies, and human resources.

Within ESA’s draft disaster recovery, emergency processing priorities have been documented.
Backup files are created on a prescribed basis and rotated off-site often enough to avoid disruption if
current files are lost or damaged. System and application documentation is maintained at the off-site
storage location. The backup storage site is geographically removed from the primary site, and
protected by environmental controls and physical access controls.

Fire suppression and prevention devices have been installed and are working, e.g., smoke detectors,
fire extinguishers, and sprinkler systems. Controls have been implemented to mitigate other disasters,
such as floods, earthquakes, etc. Redundancy exists in the air cooling system. An uninterruptible
power supply or backup generator has been provided so that power will be adequate for orderly shut
down. Environmental controls are periodically tested. Eating, drinking, and other behavior that may
damage computer equipment is prohibited.

All data center employees have received training and understand their emergency roles and
responsibilities. Data center staff receives periodic training in emergency fire, water, and alarm
incident procedures. Emergency response procedures are documented and periodically tested.




                                                              60
                                             SECTION 3C
                            Information Provided by the Service Auditor
                                   General Computer Controls
Controls exist and are up-to-date. Routine periodic hardware preventive maintenance is scheduled and
performed in accordance with vendor specifications and in a manner that minimizes the impact on
operations. Regular and unscheduled maintenance performed is documented. Flexibility exists in the
data processing operations to accommodate regular and a reasonable amount of unscheduled
maintenance. Spare or backup hardware is used to provide a high level of system availability for
critical and sensitive applications. Goals are established by senior management on the availability of
data processing and on-line services. Records are maintained on the actual performance in meeting
service schedules.

Problems and delays encountered, the reason, and the elapsed time for resolution are recorded and
analyzed to identify recurring patterns or trends. Senior management periodically reviews and
compares the service performance achieved with the goals and surveys of user departments to see if
their needs are being met. Changes of hardware equipment and related software are scheduled to
minimize the impact on operations and users, thus allowing for adequate testing. Advance notification
on hardware changes is given to users so that service is not unexpectedly interrupted.

A contingency plan has been drafted that reflects current conditions, will be approved by key affected
groups including senior management, data center management, and program managers, clearly assigns
responsibilities for recovery, includes detailed instructions for restoring operations (both operating
system and critical applications), identifies the alternate processing facility and the backup storage
facility, includes procedures to follow when the data/service center is unable to receive or transmit
data, identifies critical data files, is detailed enough to be understood by all agency managers, includes
computer and telecommunications hardware compatible with the agencies needs, and has been
distributed to all appropriate personnel.

The plan provides for backup personnel so that it can be implemented independent of specific
individuals. User departments have developed adequate manual/peripheral processing procedures for
use until operations are restored.

Contracts or interagency agreements have been established for a backup data center and other needed
facilities that: are in a state of readiness commensurate with the risks of interrupted operations, have
sufficient processing capacity, and are likely to be available for use. Alternate telecommunication
services have been arranged. Arrangements are planned for travel and lodging of necessary personnel,
if needed.




                                                   61
                                                      SECTION 3C
                                 Information Provided by the Service Auditor
                                        General Computer Controls
Tests of Described Controls                                                           Results of Tests

Reviewed policies. Interviewed program, data processing, and security                 The disaster recovery plan does not
administration officials. Determined their input and their assignment of the          include completed processing priorities.
reasonableness of priorities established.                                             No other exceptions were noted.

Reviewed written policies and procedures for backing up files, test policies,         ESA reported that it does not store
documentation supporting recent tests of environmental controls, policies and         maintenance documentation at its off-
procedures regarding employee behavior, training records, training course             site location. No other exceptions were
documentation, emergency response procedures, and maintenance                         noted.
documentation.

Compared inventory records with the files maintained off-site, and determined         No exceptions were noted.
the age of these files. For a selection of critical files, located and examined the
backup files. Determined whether backup files were created and rotated off-site
as prescribed, and were sent before prior versions were returned.

Examined the back-up storage site and the entity's facilities to determine that the   No exceptions were noted.
site is geographically removed from the primary site and protected by
environmental controls and physical access controls.

Reviewed the contingency plan and compared its provisions with the most               The disaster recovery plan has not been
recent risk assessment and with a current description of automated operations.        completed or tested. A business
Interviewed senior management, data center management, and program                    continuity plan has not been developed.
managers.




                                                              62
                                                   SECTION 3C
                               Information Provided by the Service Auditor
                                     Transaction Processing Controls

Transaction processing controls for compensation and medical benefit payments were tested in the
following areas:

        Case Creation                                                      Accuracy of Compensation Payments
        Initial Eligibility                                                Schedule Awards
        File Maintenance                                                   Death Benefits
        Continuing Eligibility - Medical Evidence                          Medical Bill Payment Processing
        Continuing Eligibility - Earnings Information                      Third Party Settlements

Control Objective 1: Case Creation - Controls provide reasonable assurance that case files were set
up properly initially and information related to the claimant was input into the computer systems
correctly.

Description of Controls:

The FECA Procedure Manual 2-401(3) and (4) contains the requirements for proper set up of the case
file and input into the appropriate computer systems.

The manual assigns the duties of keeping the case management file data accurate and up-to-date to the
CE. The case management file is set up by a Case Create Clerk and from this set up, a case number is
assigned and notated on the CA-1 or CA-2. The claim documents are then imaged. Accurate data in
the CMF is essential to ensure that the information used to set up the ACPS is correct. Once the
ACPS is set up for each claimant, all vital data must be updated in both the CMF and ACPS. This
data includes such items as the claimant's name, address, date of birth, social security number and
chargeback code. The CE verifies the accuracy of the information entered by the Case Create Clerk
by comparing Form CA-1, CA-2 or CA-5 completed by the claimant to the information in the CMF.

The employing agency is charged with the responsibility of providing the chargeback code on the
CA-1, CA-2, or CA-5. If the employing agency does not designate a chargeback code, the Case
Create Clerk determines which chargeback code should be applied. Once the case file is created, a
postcard is sent to the employing agency to confirm the chargeback code. A negative confirmation
process is used.

 Tests of Described Controls:                                  Results of Tests:

 For a non-statistical sample of 50 case creation items, we    One of the 50 items tested did not have the correct third
 compared case originating forms, such as Forms CA-1,          party indicator. No other exceptions were noted.
 CA-2 and CA-5, to the information contained in the CMF
 and ACPS to ensure that the case origination process
 resulted in the proper setup of the case files (to include
 agency chargeback codes) and related computer systems
 with current and accurate information.




                                                          63
                                            SECTION 3C
                           Information Provided by the Service Auditor
                                 Transaction Processing Controls

Control Objective 2: Initial Eligibility - Controls provide reasonable assurance that each participant
met the requirements of 1) time; 2) civil employee; 3) fact of injury; 4) performance of duty; and 5)
causal relationship prior to acceptance as an eligible participant.

Description of Controls:

An injured worker must satisfy five basic criteria to be eligible for compensation benefits. These
criteria are: 1) time; 2) civil employee; 3) fact of injury; 4) performance of duty; and 5) causal
relationship.

1) Time - The FECA Procedure Manual 2-801(3) contains the requirements for the filing of notice of
injury or occupational disease. A timely notice of injury must be filed for a claimant to be eligible for
compensation payments. The time period filing requirements are specified in 5 U.S.C. 8119. For
injuries on or after September 30, 1974, written notice of injury must be filed within 30 days after the
occurrence of the injury. For injuries occurring between December 7, 1940, and September 6, 1974,
written notice of the injury should be given within 48 hours. The FECA Procedure Manual 2-801(3)
also contains the requirements for filing a compensation claim. A timely compensation claim must be
filed for a claimant to be eligible for compensation payments. The time period filing requirements are
specified in 5 U.S.C. 8122. For injuries on or after September 30, 1974, compensation claims must be
filed within 3 years after the occurrence of the injury. For injuries occurring between December 7,
1940, and September 6, 1974, compensation claims must be filed within 1 year. A few exceptions to
these requirements are allowed.

2) Civil Employee - The FECA Procedure Manual 2-802(2) and (4) contain the requirements for
determining whether an individual meets the second of the five requirements for benefits, being a civil
employee. The definition of a civil employee is in 5 U.S.C. 8101(1). Basically, status as a civil
employee is met when: a) the service performed for the reporting office by the individual was of a
character usually performed by an employee as distinguished from an independent contractor; and b)
that a contract of employment was entered into prior to the injury.

3) Fact of Injury - The FECA Procedure Manual 2-803(3)(a) contains the requirements for the "fact of
injury." The fact of injury consists of two components which must be considered in conjunction with
each other. First is whether the employee actually experienced the accident, event or other
employment factor which is alleged to have occurred; and, second is whether such accident, untoward
event or employment factor caused a personal injury.

The FECA Procedure Manual 2-803(5) contains the requirements for the evidence necessary to
establish the occurrence of an unwitnessed accident. In establishing the fact of injury for an
unwitnessed accident, OWCP should consider the surrounding circumstances. The CE must be able to
visualize the accident and relate the effects of the accident to the injuries sustained by the injured
worker, especially where the claimant delayed seeking medical evidence.




                                                   64
                                               SECTION 3C
                             Information Provided by the Service Auditor
                                   Transaction Processing Controls

4) Performance of Duty - The FECA Procedure Manual 2-804 contains the requirements for the
performance of duty criterion. The performance of duty criterion is considered after the questions of
"time," "civil employee," and "fact of injury" have been established. Even though an employee may
have been at a fixed place of employment at the time of injury, the injury may not have occurred in the
performance of duty. The employee is generally not covered for travel to and from work. There are
five exceptions to this rule. Statutory exclusions exist under which claims for compensation should be
denied due to the willful misconduct of the employee. These claims are denied even though the
injured worker has met the fact of injury and performance of duty requirements.

5) Causal Relationship - The FECA Procedure Manual 2-805(2) contains the requirements for
obtaining medical evidence necessary to establish a causal relationship between the injury and
employment factors. An injury or disease may be related to employment factors in any of four ways:
a) Direct Causation; b) Aggravation; c) Acceleration; or d) Precipitation.

The FECA Procedure Manual 2-807(17)(d)(2) contains the requirements for the 3-day waiting period
which is required by 5 U.S.C. 8117. An employee is not entitled to compensation for the first 3 days
of temporary disability, except when: a) the disability exceeds 14 days; b) the disability is followed
by permanent disability; or c) claimant is undergoing medical services or vocational rehabilitation
during the 3-day period.

The CEs are required to evaluate the injury reports and supporting medical evidence submitted by
claimants. The injury reports and medical evidence must support that the claimant has met the burden
of proof with regards to the five criteria to establish initial eligibility. If the claimant has not
submitted documentation which fully supports the eligibility of the claimant, it is the CE's
responsibility to request such further information as the CE deems necessary. Once a CE concludes
that a claimant is either eligible or not eligible for benefits under the FECA program, the CE updates
the eligibility code in the CMF system. Claimants are notified of the CE's decision with regards to
eligibility. If the claimant disagrees with the CE's decision concerning eligibility, the claimant may
request a hearing for resolution.

 Tests of Described Controls:                              Results of Tests:

 For a non-statistical sample of 50 initial eligibility No exceptions were noted.
 transactions, we reviewed the case file to determine
 whether the notice of injury was filed timely, whether the
 claimant was a civil employee, whether sufficient evidence
 was provided to prove the injury occurred as reported,
 whether sufficient evidence was provided to prove the
 employee was in performance of their duties at the time of
 injury, whether sufficient evidence was provided to prove
 the injury was causally related to employment factors, and
 whether the CE accepted the condition and indicated
 approval of the accepted condition in the case file.




                                                      65
                                                   SECTION 3C
                                Information Provided by the Service Auditor
                                      Transaction Processing Controls

Control Objective 3: File Maintenance - Controls provide reasonable assurance that claimant's
address and social security number were correct in the ACPS and the chargeback code was correct in
the CMF.

Description of Controls:

The FECA Procedure Manual 5-308(5) contains the requirements for updating the ACPS when
corrections are necessary to the claimant's address, social security number and chargeback code.
When a report of injury is first received, a record is created in the CMF. When a request is made for
compensation for lost wages, a schedule award or for death benefits, a complete case record is then
created in the ACPS. The information transferred to the ACPS for the address, social security number
and chargeback code is the information in the CMF at the time the record is created. If any of the
information changes, both the ACPS and the CMF must be updated with the new information.

 Tests of Described Controls:                                   Results of Tests:

 For a total of 196 cases, from a sample of 146 statistically In 1 of 196 of the cases, the claimant’s date of death was
 selected internal control compensation transactions and 50 not updated in the ACPS. No exceptions were noted in the
 non-statistically selected initial eligibility transactions, we non-statistical sample. No other exceptions were noted.
 reviewed documentation in the case files to ensure that the
 social security number, date of birth and the address were
 accurate in the ACPS and CMF.

 From a total of 238 cases, for a sample of 178 statistically No exceptions were noted.
 selected compensation transactions and 60 non-statistically
 selected cases, we reviewed documentation in the case
 files to ensure that the chargeback code was accurate in the
 CMF.

Control Objective 4: Continuing Eligibility (Medical Evidence) - Controls provide reasonable
assurance that claimants submitted medical evidence to support continuing eligibility for
compensation and medical benefits.

Description of Controls:

The FECA Procedure Manual 2-812(6) contains the requirements for the periodic review of medical
evidence to verify continuing disability. The frequency of the medical review required depends on the
type of compensation the claimant is receiving. Some claimants are required to submit medical
evidence annually and others every 2 or 3 years.

FECA Procedure Manual 2-812(8) provides the procedures for obtaining and reviewing medical
reports. If a medical report is not received within the specified time (30-60 days is considered
reasonable), or the report does not contain the requested information, the CE should direct the
claimant to undergo examination by the attending physician or a second opinion specialist as
appropriate. OWCP should make an appointment for the examination. The notification to the
claimant should include warning that under 5 U.S.C. 8123(d) benefits may be suspended for failure to
report for examination.

                                                           66
                                                      SECTION 3C
                                  Information Provided by the Service Auditor
                                        Transaction Processing Controls

Where injury-related disability has ceased, the CE is to notify the claimant of proposed termination of
benefits. OWCP has the burden of proof to justify the termination of benefits by positive and specific
evidence that injury-related disability has ceased. The inadequacy or absence of a report in support of
continuing benefits is not sufficient to support termination, and benefits should not be suspended for
that reason.

 Tests of Described Controls:                                      Results of Tests:

 For 149 cases, from a sample of 99* statistically selected        In 15 of 96 statistically selected lost wage cases no current
 internal control compensation for lost wage cases and 50          medical evidence was contained in the claimant’s case file.
 non-statistically selected current medical cases, 146 cases       An additional non-statistical sample of 50 current medical
 (96 statistical and 50 non-statistical) required updating of      cases was selected. For 12 of 50 non-statistical current
 medical evidence within the past year. We reviewed                medical cases, medical evidence was not located within
 medical evidence in the case files to ensure that the current     the case file. This represents an 18% aggregate error rate
 medical evidence supported the disability status for the          in the operating effectiveness of the primary control to
 compensation being received.                                      ensure achievement of this control objective. No other
                                                                   exceptions were noted.

* A statistical sample of 99 claimants were tested for continuing eligibility controls, however, some specific tests did not
apply to all claimants due to the length of time of the claimant's injury, the date of the claim for benefits, or the claimant's
case status. Therefore, the number of tests indicated is the number of items to which tests were actually applied.

Control Objective 5: Continuing Eligibility (Earnings Information) - Controls provide reasonable
assurance that claimants submitted earnings information and authorization to obtain earnings
information from the Social Security Administration to support continuing eligibility for
compensation and medical benefits.

Description of Controls:

OWCP mails each claimant a Form CA-1032 each year. The Form CA-1032 asks the claimants to
verify the status of their dependents and report any and all earnings by the claimants. The information
reported by the claimant on Form CA-1032 is to be reviewed by a CE and the compensation rate or
amount adjusted accordingly.

The FECA Procedure Manual 2-812(6) contains the requirements for the frequency with which
claimants must complete Form CA-1032. The FECA Procedure Manual 2-812(10) contains the
requirements for changing the ACPS system when benefit changes are indicated by the claimant on
the Form CA-1032. The ACPS system must be changed to reflect the information provided by the
claimant to ensure that benefits are being paid at the proper compensation rate and amount.




                                                              67
                                                      SECTION 3C
                                  Information Provided by the Service Auditor
                                        Transaction Processing Controls

The FECA Procedure Manual 2-812(9), contains the requirements for obtaining a claimant's earnings
report from the SSA. OWCP cannot obtain earnings information from SSA without the claimant’s
authorization. Obtaining earnings information is a secondary control, as the claimant is not required
to authorize the release of this information as a condition for receiving benefits. In addition, the
request to SSA is only made in selected cases. OWCP sends the claimants a CA-935, Cover Letter
and a SSA-581, Authorization to Obtain Earnings Data from the Social Security Administration
request form. Earnings may be requested from the SSA on Form CA-1036 to determine whether an
adjustment is needed to a claimant's compensation rates. A claimant's compensation rate can be
adjusted based on the information supplied by the SSA in response to Form CA-1036. The ACPS
system must be changed to reflect the information updated by the SSA to ensure that benefits are
being paid at the proper compensation rate.

 Tests of Described Controls:                                      Results of Tests:

 From a statistical sample of 130 compensation claimants           In 5 of 87 items sampled, CA-1032s had not been obtained
 (99* lost wage cases and 31 schedule award cases), 87             from the claimants to verify earnings and dependent
 cases required current eligibility verification due to the age    information within the last year. No other exceptions were
 of the case. We reviewed the case file to determine               noted.
 whether a CA-1032 had been requested within the past
 year to verify earnings and dependent information.

 From a statistical sample of 99* lost wage claimants, 74          In 21 of 74 items sampled, a release for authorization to
 cases required current earnings information due to the age        obtain earnings information from SSA was not in the case
 of the case. We reviewed the case file to determine               file. In 17 of these 21 cases, the required forms were not
 whether a CA-935 and SSA-581 had been released to the             sent to the claimant, three were sent to the claimant but
 claimant to obtain earnings information from SSA in the           never returned, and one was returned unsigned. No other
 past year.                                                        exceptions were noted.

 From a statistical sample of 99* lost wage claimants, 14 No exceptions were noted.
 cases had SSA-581s returned from the claimant that
 should have been sent to SSA for current earnings
 information. We reviewed the case file to determine
 whether the Senior Claims Examiner had requested
 earnings information from SSA.




                                                              68
                                                    SECTION 3C
                                Information Provided by the Service Auditor
                                      Transaction Processing Controls

Tests of Described Controls:                                  Results of Tests:

From a statistical sample of 130 compensation claimants       No exceptions were noted.
(99* lost wage cases and 31 schedule award cases), 25
cases had CA-1032s or CA-1036s returned with
information requiring information be updated in the
claimant’s case file. We reviewed the case file to
determine whether the case was updated with the
information reported on the CA-1032 or CA-1036.

*A statistical sample of 99 claimants were tested for continuing eligibility controls and 31 claimants were tested for
schedule awards, however, some specific tests did not apply to all claimants due to the length of time of the claimant's
injury, the date of the claim for benefits, or the claimant's case status. Therefore, the number of tests indicated is the
number of items to which tests were actually applied.

Control Objective 6: Accuracy of Compensation Payments - Controls provide reasonable assurance
that components of compensation payments including the correct compensation percentage, pay rate,
number of hours paid, verification of leave without pay status, absence of dual compensation, and
proper reimbursement of burial bills.

Description of Controls:

The FECA Procedure Manual 2-900 contains the requirements for the computation of compensation
where the injury occurred after September 12, 1960. The Branch of Claims Services is responsible for
the computation of compensation payments. The CE is responsible for determining the several factors
used in computing compensation.

The FECA Procedure Manual 2-901 contains the requirements to periodically adjust compensation
payments to reflect the increase in the cost of living. CPI adjustments are automatically calculated by
the ACPS.

 Tests of Described Controls:                                   Results of Tests:

 For a total of 278 cases, from a statistical sample of 178     In 6 of 178 statistically selected sample items, claimants
 substantive compensation cases and non-statistical samples     were underpaid a net of $10,423. In 3 of 100 non-
 totaling 100 cases (50 initial eligibility cases and 50        statistically selected sample items, claimants were
 multiple claim cases), we reviewed documentation in the        underpaid $600. Claimants were underpaid a net of
 case files to ensure that the components comprising            $11,023.
 compensation benefits were determined correctly.
                                                                The net underpayment resulted from the use of incorrect:
                                                                Payrates (8 cases)                          $(15,844)
                                                                CPI adjustment on manual payment (1 case)       4,821
                                                                Net Underpayment                            $(11,023)

 Of a statistical sample of 178* substantive compensation In 2 of 30 statistically selected sample items, the payments
 cases and 50 non-statistical cases, 30 cases had were not authorized by a senior official at a GS-13 or
 transactions whereby a single payment was in excess of higher. No other exceptions were noted.
 $50,000. We reviewed the transactions over $50,000 to
 ensure the payment was authorized by a senior official at a
 GS-13 or higher.


                                                           69
                                                    SECTION 3C
                                Information Provided by the Service Auditor
                                      Transaction Processing Controls

 Tests of Described Controls:                                   Results of Tests:

 For a non-statistical sample of 50 multiple claim cases, we    No exceptions were noted.
 reviewed the appropriateness of the receipt of
 compensation for more than one injury for the same period
 of time (multiple claims cases). This concurrent payment
 of benefits is allowable up to certain amounts and in
 certain instances.

* A statistical sample of 178 cases and 50 non-statistical cases were tested for accuracy and proper processing of the
compensation payments. Some specific tests did not apply to all claimants due to the test applying only to payments over
$50,000. Therefore, the number of tests indicated is the number of items to which tests were actually applied.

Control Objective 7: Schedule Awards - Controls provide reasonable assurance that claimants had
reached maximum medical improvement prior to receipt of a schedule award, medical evidence was
obtained, and medical evidence stated the percentage of impairment.

Description of Controls:

The FECA Procedure Manual 2-808(6) contains the requirements for supporting a schedule award.
The file must contain competent medical evidence which: 1) shows that the impairment has reached
maximum medical improvement and indicates the date on which this occurred; 2) describes the
impairment in sufficient detail for the CE to visualize the character and degree of disability; and 3)
gives a percentage evaluation of the impairment. DMAs calculate the percentage of impairment for
the schedule award.

 Tests of Described Controls:                                   Results of Tests:

 From the statistical sample of 178 compensation items, 31 No exceptions were noted.
 items were for schedule awards, we reviewed
 documentation in the case files to ensure that claimants
 receiving compensation for schedule awards had medical
 evidence in the case files that supported their impairment
 or disability.

Control Objective 8: Death Benefits - Controls provide reasonable assurance that proper notification
of death was made; if the DMA requested an autopsy, if needed; if a death certificate was obtained; if
burial bills were obtained; and if dependent information for death benefits was verified. For
continuing eligibility of death benefits, controls provide reasonable assurance that claimant is still
eligible to receive death benefits.

Description of Controls:

The FECA Procedure Manual 2-700(5) contains the requirements for proper and supporting
documentation for the establishment of death claims and rights of the beneficiary. Some of the
documents that claimants must submit are: 1) death certificates; 2) names and addresses of next of kin;
3) marriage certificates (civil certificates); 4) birth certificates for each child; 5) divorce, dissolution,
or death certificates for prior marriages; and 6) itemized burial bills, receipted, if paid.


                                                           70
                                                     SECTION 3C
                                 Information Provided by the Service Auditor
                                       Transaction Processing Controls

FECA PM 2-700-17 contains the requirements for periodic review of death benefits. Form CA-12
Claim for Continuation of Compensation, is sent annually to all recipients of death benefits. If the
form has not been returned within 60 days of release, the CE should send a follow-up request for
completion. Upon receipt of the form, the CE should check for change of address, marital status, and
financial dependency status. The CE should take the necessary actions as outlined in this section.

For children, grandchildren, and siblings receiving death benefits, Form CA-1615 should be released
to the guardian three months before the child reaches the age of 18 to determine continuing
entitlement to compensation on the basis that the child is a student or is incapable of self-support.

 Tests of Described Controls:                                        Results of Tests:

 From the statistical sample of 178 compensation items, 16           In 4 of 16 items sampled, a current CA-12 or CA-1615 had
 items were for death benefits, we reviewed documentation            not been obtained from the beneficiaries to verify marital
 in the case files to ensure that the beneficiaries receiving        status and dependent information within the last year.
 compensation for death benefits had documentation in the            Two of the 4 errors were due to changes of address by the
 case files that established their right as the beneficiaries        claimants. No other exceptions were noted.
 and their eligibility for continuing compensation.

Control Objective 9: Medical Bill Payment Processing - Controls provide reasonable assurance that
medical bill payments were properly authorized, approved, input, and reviewed, as required.

Description of Controls:

The FECA Procedure Manual Part 5 provides detailed instructions for use of the BPS:

        Section 200 provides an overview of the system, describes the flow of bills through the office,
        outlines authorities and responsibilities, describes sources of information to be used in bill
        adjudication, and outlines procedures for some functions which support the BPS.

        Section 201 describes keying instructions for the various BPS programs that are available to
        general users, such as CEs, fiscal personnel, keyers and contact representatives.

        Section 202 describes the different BPS jobs which must be run and how to run them. These
        activities are generally carried out by the Systems Manager or operator.

        Section 203 describes the coding schemes used by the BPS.

        Section 204 describes the general rules which underlie bill adjudication.

        Section 205 describes how suspended bills should be resolved.

        Section 206 describes how informal appeals of Explanation of Benefits denial letters and
        formal appeals of fee schedule determinations should be processed.

        Section 207 describes the various BPS reports available, their uses, and how to run them.




                                                                71
                                                      SECTION 3C
                                 Information Provided by the Service Auditor
                                       Transaction Processing Controls

 Tests of Described Controls:                                     Results of Tests:

 For a statistical sample of 238 substantive medical bill         In 5 of 238 statistically selected medical bills tested,
 payments, we reviewed the medical bill payments to               medical providers were overpaid $61,653.
 ensure that the payments were: correctly entered into the
 BPS; contained all information for proper adjudication;          The overpayment resulted from:
 were not paid in excess of district established limits           1 Incorrect keying of Dates of Service           $30,087
 without proper approval by authorized personnel;                 1 Incorrect keying of Provider Type               17,521
 discounts were taken, if offered; and, were for services         1 Discount offered, not taken                     10,336
 considered proper charges against the Special Benefit            1 Incorrect keying of Procedure Code               3,563
 Fund.                                                            1 Fee Schedule Exceeded                              146
                                                                  Overpayment                                      $61,653


 For a statistical sample of 118 internal control medical bill    Thirteen of the 118 internal control transactions required
 transactions, we reviewed the payments to ensure that            additional authorization because they were over the district
 payments were not paid in excess of district established         established threshold. Two of these 13 transactions did
 limits without proper approval by authorized personnel.          not have the proper authorization.

 For a statistical sample of 118 internal control medical bill No exceptions were noted.
 transactions, we reviewed case files to ensure that: a
 medical report was submitted for the services provided;
 surgery or equipment was approved prior to payment of a
 medical bill, when required; and, that the medical services
 rendered related to the accepted condition.

 For a statistical sample of 118 internal control medical bill No exceptions were noted.
 transactions, 44 transactions were subject to the Prompt
 Payment Act. We reviewed bills that were subject to the
 Prompt Payment Act to ensure the bills were paid within
 45 days or interest was paid if the bill was paid after 45
 days.

Control Objective 10: Third Party Settlements - Controls provide reasonable assurance that third
party settlements are identified, tracked, and collected.

Description of Controls:

The FECA Procedure Manual 2-1100 outlines the procedures for processing third party cases:

        Sections (2) and (3) define authorities and responsibilities involved with third party cases.

        Section (4) describes the letters, forms and status codes used to process and track the progress
        of third party cases.

        Section (5) defines a minor injury.

        Section (7) provides instructions for third party case development by key personnel, such as
        CEs and DCE's.



                                                             72
                                                     SECTION 3C
                                 Information Provided by the Service Auditor
                                       Transaction Processing Controls

         Section (8) provides instructions to close out third party cases that are not economical to
         pursue or that would not be successful with further efforts.

        Section (9) lists certain third party cases that are not to be closed by the DCE and should be
        sent to the appropriate Office of the Solicitor.

        Section (10) provides instructions for handling settlement cases where the injury is "minor" and
        the claimant is negotiating or has made a settlement without the benefit of an attorney.

        Section (11) provides instructions for the referral of third party cases to the SOL.

        Section (13) provides instructions for when a settlement has been made or is imminent in third
        party cases referred to the SOL.

 Tests of Described Controls:                                     Results of Tests:

 From a non-statistical sample of 50* third party cases, 15       In all 15 cases, a CA – 1045 was sent to the claimant. In 9
 cases required case originating correspondence during the        of the 15 cases, no response was received to the CA-1045
 current year. We reviewed these cases to determine               within 30 days. In 2 of the 9 cases, neither a second
 whether the Letter CA-1045, which requests information           request nor a letter to the EA for assistance was completed.
 from the claimant regarding the action taken against a third     No other exceptions were noted.
 party by the claimant, including the hiring of an attorney,
 was released to the claimant, when necessary, and that the
 proper follow-up actions were conducted when the
 claimant did not reply within 30 days.

 From a non-statistical sample of 50* third party cases, 2        No exceptions were noted.
 cases required correspondence with the claimant’s
 attorneys during the prior year. We determined whether
 the appropriate forms were released to the attorneys of
 claimants involved in third party cases.

 From a non-statistical sample of 50* third party cases, 2        No exceptions were noted.
 cases required referral to the SOL due to the nature of the
 third party aspect of the case. We determined whether the
 third party cases were referred to the SOL, when required
 and the appropriate actions were taken to track, monitor
 and resolve third party cases through the SOL.

*A non-statistical sample of 50 third party cases was tested for third party processing. Some specific tests did not apply to
all claimants as only the actions to be taken on the case during the year were tested. Therefore, the number of tests
indicated is the number of items to which tests were actually applied.




                                                             73
